<html>
<title> - IRAQ: CAN SADDAM BE OVERTHROWN?</title>
<body><pre>[Senate Hearing 105-444]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-444
 
                    IRAQ: CAN SADDAM BE OVERTHROWN?

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations

                               __________

        You may access this document on the Internet at: http://
            www.access.gpo.gov/congress/senate/senate11.html




                     U.S. GOVERNMENT PRINTING OFFICE
47-150 CC                    WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
GORDON H. SMITH, Oregon              CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 DIANNE FEINSTEIN, California
JESSE HELMS, North Carolina          PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Chalabi, Ahmed, President of the Executive Council, Iraqi 
  National Congress, London, England.............................     3
Haass, Richard N., Ph.D., Director, Foreign Policy Studies, The 
  Brookings Institution..........................................    30
    Prepared statement...........................................    35
Khalilzad, Zalmay, Director, Strategy and Doctrine Program, 
  Project Air Force, RAND Corporation............................    24
    Prepared statement...........................................    27
Woolsey, R. James, Former Director, Central Intelligence Agency..    20

                                 (iii)


                    IRAQ: CAN SADDAM BE OVERTHROWN?

                              ----------                              


                         MONDAY, MARCH 2, 1998

                                       U.S. Senate,
      Subcommittee on Near Eastern and South Asian Affairs 
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m. In 
Room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senators Brownback and Robb.
    Senator Brownback. Let us call the hearing to order, if we 
could, and have our first witness, if you would care to go 
ahead, and you can sit up front, if you would like to.
    I would like to welcome everyone to this very important 
hearing on Iraq, and I thank our witnesses for agreeing to 
testify, particularly on such short notice.
    The Secretary-General's agreement with Iraq has generated a 
great deal of criticism, and most of it, I think, is well-
deserved. For that, though, I do not fault Mr. Annan. Barring 
his own personal responsibility for some highly inappropriate 
statements about U.N. inspectors, who I believe to be real 
heroes, the fact is that Mr. Annan works for the Security 
Council.
    The problem is truly quite simple, if also very difficult 
to resolve. Despite Mr. Annan's statements that Saddam can be 
trusted, the truth is that he cannot. Why? Because he does not 
want to give up his weapons of mass destruction and desire for 
regional domination, so unless we are prepared to keep 
sanctions on Iraq forever, we must be prepared to do something 
about the root cause of the problem, and that is Saddam Hussein 
himself.
    The question before us today is how. The United States has 
in the past backed the Iraqi National Congress, an umbrella 
group for many of the different factions inside Iraq. Many 
critics believe that the INC no longer has the networks on the 
ground or the cohesiveness to present a real challenge.
    I understand we have also backed the Iraqi National Court, 
a group of Iraqi ex-military men. Most of them were killed back 
in 1996, but neither of these groups, nor anyone else, has 
changed the bottom line Saddam Hussein is still in power.
    Today, I would like our witnesses to think about the 
following question: What can the United States do to ratchet up 
pressure on Saddam?
    Given the past failures of the opposition and the 
unwillingness of U.S. officials to back them up, is it 
realistic to support any opposition group? Even if the U.S. 
went forward with a program to stabilize or oust Saddam, can 
anyone seriously hope to dislodge him?
    Our witnesses today are Mr. Ahmed Chalabi, president of the 
Iraqi National Congress. We also have presenting the Hon. R. 
James Woolsey, the former director of the CIA, and Dr. Zalmay 
Khalilzad of the Rand Corporation.
    This is a difficult hearing, but one which must be held. If 
the problem is Saddam, we must see if there are alternatives to 
him, and God help us all around the world here and in Iraq as 
we consider these and deliberate on this topic.
    We will have tough questions for the panelists. We need 
tough questions to be put forward to you and very clear answers 
from you as much as we possibly can, so we will look forward to 
your testimony.
    I am delighted that joining me today is the ranking member 
of the subcommittee as well, Senator Robb from Virginia, who 
has a statement to make, and we may have some other members 
joining us as well as we go along, but Senator Robb, if you 
have a comment.
    Senator Robb. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is obviously an important hearing. We 
are dealing with a very sensitive and dicey subject matter, and 
almost every Member of Congress has his or her own prescription 
for how to resolve the current dilemma. That is one of the 
difficulties.
    There are clear precedents for many of the activities that 
have been suggested, and there are very clear dangers to the 
United States and the international community for our failure 
to successfully complete any one of a number of options that 
may be considered.
    I would say this topic in particular deserves as much 
bipartisanship as we can bring to the table. It is one where I 
think that clearly our national interest is very much involved 
and at stake, and it would be my hope that not only in this 
hearing, obviously, but in all of our deliberations, that we 
would consider the implications of whatever we may have to say 
in terms of what effect it might have on those who are most 
intimately involved with the decisionmaking process and the 
consequences of failing to take or failing to complete actions 
that may be suggested.
    So again, Mr. Chairman, I acknowledge that this is an 
extraordinarily important and certainly timely topic, but I 
think it is important that we exercise much caution as we 
proceed so that we do not provide anyone with misunderstandings 
that might complicate the process for those who actually have 
to make the very difficult decisions involved and in which all 
of us will be asked to provide our advice and counsel at the 
appropriate time.
    But with that, I thank you for calling the hearing, for 
chairing the hearing, and I look forward to hearing from our 
witnesses.
    Senator Brownback. Thank you, Senator Robb.
    Mr. Chalabi, as the president of the Executive Council of 
the Iraqi National Congress, will be our first witness. We are 
delighted to have you here. There has been much written about 
the Iraqi National Congress and what it has gone through, its 
continued viability today.
    I look forward to your testimony and then we will have a 
number of questions for you afterwards, but welcome to the 
committee. The floor is yours.

STATEMENT OF AHMED CHALABI, PRESIDENT OF THE EXECUTIVE COUNCIL, 
            IRAQI NATIONAL CONGRESS, LONDON, ENGLAND

    Mr. Chalabi. Thank you very much, Senator.
    I am honored to be here this afternoon to speak to your 
distinguished committee. Let me start by saying that I am Ahmed 
Chalabi, president of the Executive Council of the Iraqi 
National Congress. I am here as an elected representative of 
the Iraqi people, and in their name I am proud to speak with 
you today.
    I think that it is important that the appeal of the Iraqi 
people for freedom be heard by the American people whom you 
represent. For too long, U.S.-Iraq policy has been decided by a 
small group of so-called experts who view the Iraqi people as 
incapable of self-government, as a people who require a brutal 
dictatorship to live and work together. Such a view is racist. 
It runs counter to 7,000 years of Iraqi history and to the 
universality of the principles of liberty and democracy central 
to United States foreign policy.
    I am here today to appeal to the larger America, the 
America that believes in liberty and justice for all. I welcome 
the opportunity.
    Iraq is the most strategically important country in the 
Middle East. It has a central geographical position, a talented 
and industrious population, abundant farmland and water, and 
lakes and lakes of oil. Iraq has the largest oil reserves of 
any nation on Earth. Iraq has so much oil that most of the 
country is still unexplored. This enormous wealth, this 
enormous potential is the birthright of the Iraqi people. It 
has been stolen from them by a tyrant.
    You must realize that the Iraqi people are Saddam's first 
victims. Saddam and his gang of thugs took absolute power in 
1968. Since that time, the Iraqi people have been driven into 
slavery, murdered by the hundreds of thousands, and shackled to 
a rapacious war machine responsible for the deaths of millions 
and, if the appeasement recently negotiated by the United 
Nations Secretary-General, now being debated in the United 
Nations Security Council, is allowed to stand, it is the Iraqi 
people who will be the first to suffer another slaughter.
    Kofi Annan went to Baghdad to negotiate with Saddam 
Hussein. Kofi Annan is proud of the fact. Kofi Annan said that 
the agreement he negotiated was different, because he 
negotiated with President Saddam Hussein himself. Kofi Annan 
praised Saddam as a decisive man, as a man he could do business 
with, as a man whose concern was for his people.
    Saddam is a mass murderer who is personally responsible for 
the genocidal slaughter of at least 200,000 Iraqi Kurds, 
250,000 other Iraqis, Arabs in this case, and tens of thousands 
of Iraqi dissidents in the last 10 years.
    Max van der Stoel, the U.N. Special Rapporteur for Human 
Rights in Iraq, has documented the repression of Iraq as the 
gravest violation of human rights since the second world war.
    I might add that the Secretary-General has ignored last 
year's diplomatically inconvenient conclusions of the United 
Nations Commission on Human Rights and the United Nations 
General Assembly, deploring Saddam's atrocities. The Iraqi 
people cannot ignore this horror. They must live with it every 
minute of their lives.
    I have fought Saddam from the very first days of his 
terror. I have lost family members, thousands of friends and 
associates, and millions of countrymen to Saddam's death 
machine. I am sickened to see the Secretary-General of the 
United Nations smile and joke and shake hands with this despot.
    I am only comforted by the fact that the civilized world 
and the American people will not stand for it. The U.S. House 
of Representatives and the United States Secretary of State 
have and soon, I hope, the U.S. Senate will call for Saddam's 
indictment on charges of genocide, war crimes, and crimes 
against humanity. The evil of Saddam must be confronted with 
the strong arm of justice, not with the limp handshake of 
appeasement.
    To make matters even worse, the Secretary-General also 
found it expedient to criticize UNSCOM, the United Nations 
Special Commission charged with disarming Saddam's nuclear, 
chemical, biological, and missile programs.
    Kofi Annan called Captain Scott Ritter and UNSCOM 
inspectors cowboys, and implied that they should respect 
Saddam's sovereignty. I know from my own sources in Baghdad 
that Scott Ritter is an American hero. During the June 1996 
stand-off with Saddam, while Scott Ritter was parked outside 
the infamous Abu Ghrayb Prison and Presidential complex, Uday 
Hussein, Saddam's son, issued orders to a band of his drunken 
friends to have him assassinated.
    The attack was carried out, but by the grace of God and the 
dissolution of the attackers it failed. In their drunken state, 
the men machine-gunned the Nissan Patrol of the Iraqi minders 
rather than that of the inspectors.
    Scott Ritter is no cowboy. He is a former United States 
marine who fought against Saddam in the Gulf War and has been 
working selflessly for the United Nations to make Saddam honor 
the terms of the cease-fire ever since. Rather than attack him, 
the Secretary-General would do well to honor him. He is one of 
the best warriors the international community has produced in 
its quest to control Saddam's weapons of mass destruction.
    But perhaps the Secretary-General's craven behavior does 
reflect the hard reality. Iraq will never be free of weapons of 
mass destruction as long as Saddam is in power. Iraq will never 
be at peace with its neighbors as long as Saddam's war machine 
is in place.
    United Nations diplomats treat Saddam as Iraq's legitimate 
government. They cannot be expected to work for his removal 
from power. That is the work of the Iraqi people; and I say to 
you, in the name of the Iraqi people, Saddam is the problem. He 
can never be part of any solution.
    The Iraqi people do not support Saddam Hussein. They never 
have, and they never will. God knows, they do not support 
Saddam's insane acquisition and use of weapons of mass 
destruction. The Iraqi people know full well the horror of 
chemical and biological weapons. Saddam has gassed both the 
Iraqi Kurds and the Iraqi Arabs, killing tens of thousands of 
them. Thousands more Iraqi political prisoners have been 
subjected to torture and experiments with chemical and 
biological toxins.
    Saddam's chemical and biological warfare industry enslaves 
tens of thousands of Iraqis who are virtually unprotected from 
the poisonous production. All of Iraq is threatened with 
annihilation if Saddam is ever able to launch the war of Middle 
Eastern domination he intends.
    The Iraqi National Congress is committed to a future Iraq 
without weapons of mass destruction, to a future Iraq which 
renounces aggression as State policy, and to a future Iraq at 
peace with all its neighbors.
    The Iraqi National Congress asks your help in removing the 
threat of Saddam's doomsday weapons from our people, from the 
region, and from the world. Helping the Iraqi people regain 
their country is the only solution. Saddam cannot be trusted. 
Saddam cannot be negotiated with. Saddam has proven that he 
will starve and murder every Iraqi and every person with the 
misfortune to fall under his control until he has enough horror 
weapons to dominate the Middle East and threaten the world. It 
is time to help the Iraqi people remove Saddam from power.
    The only good thing about the agreement that was negotiated 
with Saddam was that it bought time and stopped a futile 
bombing campaign which would have killed thousands of Iraqis. 
Without the political program to accompany military action, 
military action is worse than useless. It is counterproductive.
    Will you bomb my country now more than you did in 1991? 
Saddam does not care how many Iraqis are killed. He is 
executing and starving them himself by the tens of thousands 
right now. The Iraqi people do not need to be bombed for 
Saddam's sins. The Iraqi people need to be supported as they 
regain their country and reestablish Iraq as a productive 
member of the international community.
    Such an Iraqi political program, consonant with both United 
States and Iraqi interests, is already in place in the Iraqi 
National Congress. The Iraqi National Congress was founded in 
1992, with democratic conferences of Iraqi political forces in 
Vienna, Austria, and Salahuddin, Iraq.
    The Salahuddin Conference of October 1992 was a defining 
moment in Iraqi politics. Parties from all over the country and 
all political strands came together on Iraqi soil and agreed to 
a future Iraqi representative government, organized as a 
parliamentary democracy. United States political support, 
particularly the support of the U.S. Congress, was critical in 
providing the hope of a free Iraq that was crucial in forging 
this consensus.
    From mid-1988 until March 1991 there was an order, issued 
by the Secretary of State, that banned any member of the State 
Department from even meeting the Iraqi opposition. Pressure 
from Congress opened the door and led to the fruitful political 
discussion and past cooperation between the U.S. Government and 
the Iraqi National Congress. Cooperation can begin again, 
perhaps with another meeting of the Iraqi National Assembly in 
Washington, D.C. to encompass the whole opposition and to elect 
a new leadership for the INC.
    With United States political support and United States 
military protection, the Iraqi National Congress was able to 
build headquarters and bases inside Iraq, establish and program 
television and radio stations, organize medical clinics, and 
conduct intelligence and military operations against Saddam.
    These activities were undertaken by Iraqis on Iraqi 
territory, using primarily Iraqi resources. At the height of 
the INC's operations, before Saddam was allowed to mass 400 
Russian T-72 tanks against us, the INC directly employed nearly 
7,000 Iraqis and had organized in-country networks involving 
thousands more. All were, and many are still, engaged in the 
fight against Saddam.
    It is true that INC was hurt when Saddam's tanks were 
allowed to invade Arbil, our headquarters, slaughter our 
lightly armed troops, imprison and torture and execute our 
computer programmers, our TV engineers, and our medical relief 
staff. It is also true that the INC had open political 
assurances from the highest levels of the U.S. Government that 
the U.S. Government would protect the inhabitants of northern 
Iraq from Saddam's repression.
    On the strength of these assurances, the INC did not 
acquire antitank defenses. In fact, the INC was actively 
discouraged by U.S. officials from doing so. We do not, and we 
hope you do not, intend to make the same mistake again.
    It is important to realize that the strength of the Iraqi 
National Congress, as is the case with all democratic 
movements, is in the people of the country. Through INC 
broadcasts and INC networks and INC diplomacy, the INC is well-
known inside Iraq and has a large but unorganized following.
    I offer you an example with which you and your constituents 
might be familiar. During the 1996 Atlanta Olympics, the Iraqi 
Olympic flag-bearer defected to the Iraqi National Congress. 
Before his defection, he had never spoken to an INC member, and 
yet from INC radio he was familiar enough with the INC program 
for a democratic Iraq that within hours he was speaking for the 
INC on U.S. and international network television.
    The INC's popular base is its greatest strength and 
Saddam's greatest weakness, and it is for this reason that I am 
here to ask for overt U.S. support, not covert U.S. action. 
Saddam can only be removed by a popular insurgency. He is coup-
proof.
    The Iraqi National Congress does not support the program 
now being attributed to the United States Central Intelligence 
Agency to use mercenary agents to conduct sabotage against the 
Iraqi people's infrastructure. The Iraqi National Congress 
rejects the Central Intelligence Agency's characterization of a 
small group of ex-Iraqi army officers as a major Iraqi 
opposition party.
    The INC deplores the recent CIA-sponsored broadcasts 
promoting military rule in Iraq. It is not up to the CIA to 
determine Iraq's leadership. It is up to the Iraqi people.
    The Iraqi National Congress is a democratic movement open 
to all Iraqi political parties. I am here in the name of the 
INC and the Iraqi people it represents to ask for an open U.S. 
commitment to support Iraqi democracy. Open U.S. support for 
the Iraqi National Congress and the process of Iraqi democratic 
reconstruction is the best guarantee of U.S. interests.
    International support for the dictatorship of Saddam 
Hussein has cost the Iraqi and the American people dearly. No 
matter what, another dictator cannot be allowed to replace 
Saddam. The cost to both our peoples would be enormous.
    What should replace Saddam is a representative Iraqi 
Government. The Iraqi National Congress provides the Iraqi 
political movement. We look to the United States to provide the 
political, logistical, and military help the INC needs to 
confront and replace Saddam.
    I want to emphasize that the INC does not request any U.S. 
occupying force. The Iraqi people are in Iraq. They already 
occupy Iraq. What is needed is not a U.S. army of occupation, 
but an Iraqi army of liberation.
    Even so, United States leadership is required. Over 250,000 
Iraqis were killed in 3 weeks after they heeded President 
Bush's call to rise against Saddam, only to find that General 
Schwartzkopf had carefully preserved and allowed the use of 
helicopter gunships and tanks that Saddam's thugs needed to 
slaughter the Iraqi people. They have the right to be afraid.
    The regional States are also afraid. King Hussein of Jordan 
is a case in point. In 1995, he was enlisted by the United 
States in a hopeless coup-plot against Saddam Hussein from 
Jordanian territory. He was encouraged by the United States to 
call for Saddam's overthrow and yet, for the past month, senior 
U.S. officials in the administration have been at great pains 
to insist that they are not working to oust Saddam. Is it any 
wonder that King Hussein is now calling for dialog and 
reconciliation with the Iraqi dictator?
    Absent U.S. leadership or a WMD capability, no regional 
State can stand against Saddam. The United States must lead. 
The United States cannot hide behind the fictions of United 
Nations enforcements or the will of the international 
coalition.
    It was U.S. force that devastated Iraq in 1991. It is U.S. 
force that is on war alert in the Gulf now. Saddam knows he is 
at war with the United States, and I am sure that the United 
States servicemen and women deployed in the Gulf know this 
also, yet the Iraqi people do not resent this force. They 
embrace it.
    This week, I was talking to Colonel Ken Bryer, now in the 
Pentagon's Office of Low Intensity Conflict, who recounted his 
experiences with tens of thousands of Iraqi POW's after the 
cease-fire. To a man, he said, their complaint was not that the 
United States had fought Saddam, but that the United States had 
not helped the Iraqi people remove Saddam from power.
    The Iraqi National Congress believes that the proper 
response to Saddam Hussein's continued violation of the Gulf 
War cease-fire, to his continued criminal repression of the 
Iraqi people, and to his ongoing campaign of international 
terror is an open United States commitment to the overthrow of 
Saddam and to the establishment of a representative Iraqi 
Government.
    Immediate actions include a United States declaration that 
Saddam is in material breach of United Nations Security Council 
resolution 687, the Gulf cease-fire resolution, and a United 
States declaration of military exclusion zones, in which 
Saddam's armored forces and his artillery would not be allowed 
to operate south of the 31st parallel, north of the 35th 
parallel, and west of the Euphrates River.
    In these areas, the United States would lift sanctions and 
assist the INC in establishing institutions for humanitarian 
relief of the liberated population, the maintenance of law and 
order, and the provision of basic services leading to the 
establishment of an effective provisional government.
    This provisional government would commit to restore the 
independence, unity, and territorial integrity of Iraq. As a 
means of international reconciliation, the United States would 
declare its willingness to work with the provisional government 
and concurrently move to indict Saddam and his top henchman 
under U.S. and international law.
    The Iraqi National Congress has the operational experience 
to make such a plan work. Right now, the INC is confronting 
Saddam on the ground and has the support of thousands of 
Iraqis, and the INC knows that, given any chance of success, 
millions of Iraqis are willing to risk their lives to fight 
Saddam.
    In March 1991, only 7 years ago, 70 percent of the Iraqi 
population, over 15 million people, were in open revolt against 
Saddam. They will rise again. Give the Iraqi National Congress 
a base, protected from Saddam's tanks, give us the temporary 
support we need to feed and house and care for the liberated 
population, and we will give you a free Iraq, an Iraq free of 
weapons of mass destruction and a free market Iraq.
    Best of all, the INC will do all this for free. The U.S. 
commitment to the security of the gulf is sufficient. The 
maintenance of the no-fly zones and the air-interdiction of 
Saddam's armor by U.S. forces assumed in the INC plan is 
virtually in place. The funds for humanitarian, logistical, and 
military assistance requested by the INC for the provisional 
government can be secured by Iraq's frozen assets, which are 
the property of the Iraqi people.
    Once established in liberated areas, the wealth of the 
Iraqi people can be used for their salvation. All the Iraqi 
National Congress and the Iraqi people ask is a chance to free 
their country.
    Seven years ago, the United States thought it had won a war 
with Saddam. The Iraqi people knew it was not so. In these 7 
years we have fought and we have died in the hundreds of 
thousands at the hands of Saddam Hussein. Now that Saddam again 
threatens not only the Iraqi people but the region and the 
world, the Iraqi people ask you to give us the tools and let us 
finish the job.
    Saddam is the Iraqi people's problem, and we are prepared 
to bear any burden to remove him from power. All we ask is a 
chance to free ourselves. We look to the United States to give 
us that chance.
    Thank you.
    Senator Brownback. Mr. Chalabi, you put forward a very 
powerful statement. There are a number of questions that I want 
to ask you about that, and I hope none of them are interpreted 
by you or anybody else as a lack of resolve or a question on 
this Senator's part, but simply that there are a number of 
logistical questions that people have about the viability in 
this area.
    A number of us strongly support destabilizing Saddam 
Hussein, recognizing that the problem is Saddam, it is not the 
Iraqi people, and that we have got to get rid of the problem. 
We have a lot of questions about whether we can get just that 
done, and I do not want to trivialize at all the number of 
lives that have been lost by the Iraqi people in fighting 
Saddam, and your own statement about even the number of family 
members that you have lost is very touching to me, and I note 
those, and I know you have paid a very heavy price for standing 
up to this dictator and I thank you for it, and the American 
people thank you for that.
    But I want to ask you some direct questions. The basic--and 
it is probably--this will boil everything down to the nutshell 
of it, is most of the American people, if not all of the 
American people support the removal of Saddam.
    In 1991 we had half-a-million troops on the ground of a 
multilateral force in the region. We had defeated his army, and 
yet we did not remove that regime from power. What kind of 
commitment would be involved were the United States to commit 
itself to this goal now that we did not get accomplished in 
1991?
    Mr. Chalabi. Senator, in 1991 let me say that Saddam was 
almost overthrown. 14 out of 18 provinces were in open 
rebellion against him. It was only the decision by the U.S. 
Government to permit Saddam to use combat helicopters and tanks 
that crushed the uprising. I know for a fact from many people, 
generals who were with Saddam at the time who had defected to 
us since, that Saddam was finished. It was only the permission 
given by General Schwartzkopf to Saddam's generals to use 
combat helicopters and to permit the use of armor that crushed 
the rebellion.
    But you ask, what now? I do not believe that there is a 
need for U.S. ground troops to enter Iraqi territory. I believe 
that the military exclusion zones we are asking for can be 
enforced from the air. I believe, Senator, that this will be 
confirmed to you by many military experts in those areas, and 
limited exclusion zones. Saddam's tanks and artillery will 
either have to defect to the opposition or to leave the area.
    This is the place where the Iraqi people will establish a 
provisional government. We have experience with that. When 
people believed that Iraqi Kurdistan in the north was a safe 
haven, we went there on the ground, established ourselves, and 
established a very effective program of countering Saddam, of 
confronting Saddam, and of dealing with officers and soldiers 
and bureaucrats and officials and ministers within Saddam's 
government, so we have experience with that.
    We need a commitment, a political commitment and a military 
commitment in terms of establishing the military exclusion zone 
for us to operate.
    And we believe that we are not calling for a civil war. 
Saddam's divisions, even his Republican Guards, will come over 
to us. This was demonstrated by us in 1995, when we carried out 
operations against Saddam with no U.S. support and with some 
active U.S. discouragement at the time.
    We were able to knock out two divisions and over 1,000 
officers and men came over to us. They were interviewed by U.S. 
military intelligence personnel, who could verify to you the 
state of mind of these people and how they wanted to come over 
to us. We can attract Saddam's military if we have a base on 
Iraqi territory to operate from.
    Senator Brownback. You noted in your testimony that your 
coalition was harmed significantly when Saddam was able to move 
into an area in the north and attack a number of people 
associated with your coalition. What is the current status of 
your coalition today, the Iraqi National Congress? Can you give 
us some description of where it stands today as a group, and 
the number of people or groups that you have working with your 
coalition today?
    Mr. Chalabi. The Iraqi National Congress continues to have 
the membership of most of its original founders. Very few of 
the people who founded the Congress have pulled out. However, 
several important members hold their membership in abeyance 
now. That is because of two things. First, we lost Iraqi 
Kurdistan in the north as a base to operate from. It is no 
longer a friendly area, because Saddam has penetrated that 
area. That is one of the reasons that people hold their 
membership in abeyance.
    And the other factor is, people perceive the United States 
to have pulled their support from us, which is true. We have 
received no United States support for at least 18 months now.
    Now, we say that we are in a much better position than we 
were at 1992, when we established the Iraqi National Congress. 
There was nothing there. Now, we have people working and 
reporting from Iraq, reporting on activities and carrying out 
operations.
    To give you some examples, we brought out the names of 160 
people, specific details, about those people who were executed 
by Saddam in December.
    We have on our Web site on the Internet a whole list of the 
Iraqi intelligence organizations, their members, their 
personnel, where they live, and the structures of these 
organizations.
    In addition, I will give you another example of how we can 
operate inside Iraq. There is a campaign where the Iraqi 
National Congress is participating in the international 
campaign to indict Saddam. We were able to distribute a letter 
from the leader of this campaign, Ann Kluett, a member of the 
British Parliament, through the military mail of the Republican 
Guard, to 75 leading officers asking them to help us indict 
Saddam, on their desks. This caused major furor.
    I can go through many things. However, I would say to you 
that I have reason to believe that, given an indication of U.S. 
support, the Iraqi people, through their political parties, 
will come over. The Kurds are a case in point.
    The Kurdish parties now have been told by the United States 
that northern Iraq is no longer of interest to the United 
States. They were told this by leading officials in 1996, and 
that the north is not of strategic interest. The south is.
    They have little choice but to try to accommodate 
themselves with Saddam. This is the reality. Saddam is the head 
of a totalitarian regime. If the Iraqi people do not get help, 
and if they do not feel the Iraqi National Congress which 
represents their aspirations does not have United States 
support, they cannot hold a hope for success. Given your 
support, we can be stronger than we ever were.
    Senator Brownback. And you believe that if we establish 
these military exclusion zones, the parameters of which you 
described, that the safe havens will flourish? If we just 
establish those military exclusion zones, you believe strongly 
that that will indeed occur?
    Mr. Chalabi. No. It is not an automatic process. We have to 
have the means to go in there and to manage this operation. We 
have plans for this. We have plans for both civil and military 
things to do.
    The first 10 days, the first 20 days, the first 100 days, 
it is not an automatic thing. We need support and we need funds 
that are required to make this thing run.
    Senator Brownback. Let me go at you very particularly on 
this point and, again, I mean no disrespect at all. You have 
suffered a great deal, and the Iraqi people have as well, but 
two of the major Kurdish groups have not been able to remain at 
peace with each other.
    How can we expect the INC to hang together well enough to 
fight Saddam to maintain a viable coalition government even 
after he is no longer in power, if we were successful in doing 
that? Would we be able to, and what assurances can you give us 
that that would occur?
    Mr. Chalabi. Senator, the Kurdish civil war is one of the 
greatest tragedies in modern Iraqi history. It is a personal 
tragedy for me, because it has shown me how fragile Saddam has 
made the Iraqi body politic, but let me tell you this, the 
Kurds are primarily to blame for fighting each other.
    However, the Kurds overcame decades of rivalry and were 
united in the Iraqi National Congress for 2 years. They held 
up--they were given no hope. The feeling that they had was the 
United States will not assist the Iraqi National Congress in 
removing Saddam.
    I will tell you an incident that has happened in 
Salahuddin. A high-level American delegation from the State 
Department and the NSC came to northern Iraq and met with both 
Kurdish leaders in my presence. In the first meeting with Mr. 
Massoud Barzani they were quite happy--in fact, they were 
ecstatic about the achievements that we have made.
    They turned to Mr. Barzani and said to him, what can we do 
to raise the profile of the INC? He said, help us take the city 
of Mussad, in northern Iraq. It is an Arab city.
    There was stunned silence. They said nothing, and the 
subject was never opened again. After they left, he turned to 
me and said, look, they are leading us down a blind alley. That 
is the kind of situation that prevailed then.
    However, the Iraqi National Congress was very successful in 
conflict resolution and policing the cease-fire when the 
fighting broke out. We succeeded in stopping the fighting and 
helping to negotiate an agreement between the Kurdish parties. 
We were for 6 months we deployed about 1,200 troops to separate 
the two sides. We were promised U.S. help. No help was given to 
us. We ran out of resources. We pulled them out. The fighting 
started again in 1995.
    Until Saddam came to Arbil there were seven meetings 
chaired by the United States State Department. At every time, 
every one of those meetings, we are about to reach an agreement 
which requires funding, which was finally reduced to $1 million 
to start operation and it would be self-funding.
    The U.S. delegates would feel very encouraged, and when 
they are in the meetings they say, we will go and get 
everything. They go back to Washington, silence for 2 months 
until fighting restarts, and they start again.
    We believe that we are successful at conflict resolution. 
We believe that we are successful in resolving the differences 
that may arise, and you can test that as we go along. Our 
performance is the answer to the guarantees.
    I cannot give you a guarantee of the future. What I can 
tell you, measure me, judge me as I go along. Judge us as we go 
along.
    Senator Brownback. I want to have another round of 
questioning to come back to, but I would note the Foreign 
Relations Committee hopes to take up shortly an indictment 
resolution on Saddam Hussein, as one of the statements that you 
have made and a number of us believe should be taken and 
brought on forward as well.
    We would like to go another round of questioning, but for 
the moment I will turn it over to Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Mr. Chalabi, I think that you may have been alluding, in 
your last response to the chairman's question, to the specific 
sentence from your testimony that I would like to inquire about 
first, since you are on that topic.
    You said, and I quote, it is also true that the INC had 
open political assurances from the highest level of the U.S. 
Government that the U.S. Government would protect the 
inhabitants of northern Iraq from Saddam's repression. There is 
not much ambiguity in that statement. Are you suggesting that 
the President of the United States directly conveyed to you or 
to others the assurances that that statement would suggest?
    Mr. Chalabi. The Vice President did so in a letter 
addressed to me dated August 4, 1996--1993, I am sorry.
    He says in that letter the President and I will continue to 
support the coalition and prevent Saddam from repressing the 
inhabitants of Northern Iraq. That letter exists. I have a copy 
of it.
    Senator Robb. And you interpreted that to mean, in an 
absolute sense, that the United States would intervene directly 
against Saddam if he should attack any of the Kurdish 
opposition in northern Iraq?
    Mr. Chalabi. Yes. Not only I interpreted it, but the 
thousands of people who came, and the hundreds who got killed. 
We established the INC bases in northern Iraq based on this 
letter, and the President said it to the INC delegation.
    That letter goes on--it is quite detailed. It says that we 
will provide--he said Secretary Christopher, National Security 
Advisor Lake and myself have given you solid commitments to 
help you establish a democratic Iraq.
    Senator Robb. To establish a democratic Iraq, et cetera, 
but----
    Mr. Chalabi. The first clause, yes, about protecting the 
inhabitants of northern Iraq from Saddam.
    Senator Robb. But you interpreted that to mean direct 
military intervention by the United States. Did you have any 
followup correspondence with anyone in authority to provide 
that kind of assurance that such a reaction or plan of action 
was actually contemplated in response to any of the actions 
that the Kurdish opposition in northern Iraq might have been 
contemplating?
    Mr. Chalabi. I had many discussions over that period, but I 
was mostly in northern Iraq. I stayed most of my time in 
northern Iraq from 1995 until 1996. I had no reason to believe 
the United States would not protect the area from Saddam. They 
had the no-fly zone.
    Senator Robb. Again, I am not attempting to debate at this 
point. I am just trying to make sure that I understand the 
nature of the commitment that you have suggested and the nature 
of the communications, and any implications that flow from it.
    Mr. Chalabi. I have had verbal assurances from various U.S. 
officials that, in fact, the United States will not stand idly 
by and let Saddam march into the northern safe haven.
    Senator Robb. But were you ever given any specific reason 
to believe that there were forces tasked to respond to a 
specific provocation by Saddam?
    Mr. Chalabi. There were U.S. aircraft flying all over 
northern Iraq. I believe that those aircraft would have been 
there flying on a daily basis.
    Senator Robb. In other words, your reliance on the 
characterization of the correspondence that you just alluded to 
from the Vice President was based on your belief that whatever 
protection rendered would have been from the air assets that 
were flying out of the northern launching points for U.N. and 
U.S. no-fly suppression?
    Mr. Chalabi. Yes, sir. Those aircraft we believe were there 
to protect the inhabitants.
    Senator Robb. Do you think those aircraft themselves would 
have been adequate to provide the kind of protection you have 
suggested?
    Mr. Chalabi. More than adequate, sir, had they bombed a few 
times Saddam's tanks.
    Senator Robb. What would you have desired the aircraft that 
were operating in the northern no-fly zone to do that they did 
not do?
    Mr. Chalabi. They did not interfere with Saddam's massing 
of his armor against the city of Arbil. It took him about 11 
days to do that, and they did not prevent him from launching 
his attack when he did against the city of Arbil with 400 
tanks, but we believe they could have done it.
    Senator Robb. I do not want to pursue this beyond where we 
are right now in this forum, but you believe that you had a 
commitment to act against that kind of a buildup? I will just 
leave it at that.
    Mr. Chalabi. OK.
    Senator Robb. But that was your understanding?
    Mr. Chalabi. Our understanding was yes.
    Senator Robb. OK. Let me ask you another question that 
relates to the latter part of your testimony, and that regards 
the funding.
    The very last paragraph of your prepared testimony you 
said, best of all the INC will do all of this for free, and 
then you talk about the number of assets that the international 
community and specifically the United States already has in 
place and then you talk about, military assistance requested by 
the INC for the provisional government can be secured by Iraq's 
frozen assets, which are the property of the Iraqi people.
    First of all, do you know what constitute the frozen 
assets, and by what claim do those belong to the Iraqi people?
    Mr. Chalabi. Those are held now in the name of the Iraqi 
Government, and they are frozen. We know there are claims 
against them from American companies who have debts now. 
However, those assets are still held in the name of the Iraqi 
Government.
    If there is a provisional government and if Saddam is 
delegitimated, then one would expect that it would be possible, 
although complicated, for the United States to say that we can 
block a certain amount of these funds and lend money against 
them to the provisional government. That is the idea.
    Senator Robb. Again, I am in sympathy, empathy with the 
desire to find an alternative to the current government in 
Iraq, make no mistake about that, but I want to also make sure 
that we understand, even on the basis of your statement, what 
you are asking the United States to do.
    Now, as you suggested, what are referred to as frozen Iraqi 
assets are, in fact, international claims, international 
payments that happen to be frozen because of the fortuity of 
that particular action. They do not represent the kind of 
assets that would provide a base of support.
    I know they have been referred to by any number of 
commentators as a source of potential funding because of the 
difficulty of the process of direct appropriations here in the 
United States for activities that might be either overt, 
covert, whatever the case may be, and a current desire to find 
a ``pot of money,'' but it is important to understand what 
those assets represent and what they do not represent in terms 
of essentially government assets that are available to some 
other entity that might represent in provisional form the 
people of Iraq.
    Is this the only way that you can see to fund any potential 
provisional opposition by the Iraqi National Congress and 
others that might be brought into some common undertaking to 
eventually displace, without going into details, Saddam and his 
current regime?
    Mr. Chalabi. No, Senator. There are several other 
alternatives. There is an alternative of, if the United States 
would support the provisional government it can appropriate 
money for a loan to this provisional government which would be 
repaid immediately out of oil that would be produced from the 
areas in the south.
    Senator Robb. To whom would the U.S. Government appropriate 
this loan, I think is the way you are describing it?
    Mr. Chalabi. To the provisional government that would be 
established, the Iraqi provisional government. Sir, this has 
been done in the past. The money was given to the president of 
Haiti from Haitian accounts in Panama. It was done the same 
way, also. There are precedents farther back.
    The point is that it is a legal issue. If the United 
States, as a sovereign State, decides that Saddam no longer 
represents the Iraqi people, that he has hijacked the territory 
he is in, and that somebody else represents the Iraqi people, 
they can with all due process provide a loan to this other 
entity, which they would--which they are ready to deal with.
    That also would be enforced by an indictment against 
Saddam. How can he be legitimate if he is indicted as a war 
criminal?
    Senator Robb. As you know, there are some technical and 
legal complications that are involved, but I will not go into 
those right now. My time on the first round has expired.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Robb.
    Do you have a copy of the letter from the Vice President 
with you, Mr. Chalabi?
    Mr. Chalabi. Yes, I do, but not on me right now. I can 
produce it. I have it here in Washington.
    Senator Brownback. Would you give that to the committee, 
and we will enter it into the record.
    Mr. Chalabi. I will do so, sir.
    [The information referred to follows:]

                                The Vice President,
                                            Washington, DC,
                                                    August 4, 1993.
Mr. Ahmad Chalabi,
President of the Executive Council,
Iraqi National Congress,
Trevor House, 100 Brompton Road,
London, SW3 1E8, United Kingdom.
    Dear Mr. Chalabi:
    Thank you for your letter of May 12, 1993 on behalf of the 
distinguished leadership of the Iraqi National Congress (INC). It was a 
privilege for me to meet with these spokespersons for millions of 
oppressed Iraqi citizens and to convey my country's respect, 
admiration, and support. The President and I share the concerns you 
raise in your letter, and I assure you that we will not turn our backs 
on the Kurds or the other Iraqi communities subjected to the repression 
of Saddam Hussein's regime.
    Our policy toward Iraq is clear. We insist on full Iraqi compliance 
with all of the United Nations Security Council resolutions. This 
includes U.N. Resolution 688, which demands an end to Iraq's repression 
of its people and highlights the plight of the Kurds. Since April 1991, 
coalition forces have protected the inhabitants of northern Iraq from 
Baghdad's repression, and the Administration is committed to continuing 
that effort.
    The Administration also fully supports humanitarian relief efforts 
in Iraq and a robust U.N. guard presence there. We recently took the 
lead in organizing a donors conference in Geneva to assist the relief 
operations in northern Iraq, and we are seeking additional 
international funding for the U.N. escrow account that finances U.N. 
programs in Iraq.
    Secretary Christopher, National Security Advisor Lake, and I made a 
solid commitment to INC representatives in our meetings, and we pledged 
our support for a democratic alternative to the Saddam Hussein regime. 
I can assure you that the U.S. intends to live up to these commitments 
and to give whatever additional support we can reasonable provide to 
encourage you in your struggle for a democratic Iraq.

            Sincerely,
                                            Al Gore



    Senator Brownback. I want to go into another particular 
line of questioning, if we could, on what happens to Iraq if 
Saddam is removed. I think we need to get him out of there, and 
he is the problem. But, obviously, one of the risks in 
supporting some of the groups fighting against Saddam is that 
we may end up promoting the dissolution of Iraq, into a Kurdish 
state, a Shiite state, a Sunni state. And how do you see this 
risk, in happening? And that is what some experts are putting 
forward would actually happen.
    What is your response to their assertion?
    Mr. Chalabi. Sir, no Iraqi leader of any faction has called 
for the dissolution of Iraq. The Kurdish leaders of Iraq have 
not called for an independent Kurdistan in Iraq. The Shia have 
no reason to secede from Iraq. They happen to be a majority of 
the population, as a sect.
    However, it is only experts in Washington and other 
capitals who say that there is a danger of the dissolution of 
Iraq. Let me put it to you this way. How would a Kurdish state 
survive? It would be surrounded. It has no ports. It has no 
access to the world except through Iran, Turkey, Syria, and 
Iraq. And all of them would be hostile to it.
    Why would the Kurdish leaders do that? They have no reason 
to do it. And the linked that are forged between the Iraqi 
population as a whole will demonstrate to you that the Kurds 
have very little incentive to do that.
    As for the Shia and the Sunnis, they are both Arabs. Iraq 
preceded Saddam. If we go into history, one will discover that 
there was a parliamentary government in Iraq under the 
Monarchy. The parliament was not perfect, but there were 
elections. The elections were no more corrupt than the British 
elections of a century ago--1860, for example. There were 
elections. There were cabinets, and they had to get a vote of 
confidence in parliament. Iraq will not break up.
    The other thing I would like to tell you is that the civil 
service in Iraq is not all lackeys of Saddam. They have 
experts. They have people who have demonstrated their ability 
to run things. That would still be in place.
    Besides, there is another factor which is very important. 
One, we are calling for the indictment of Saddam and a handful 
of his closest associates. We are calling for an amnesty for 
everybody else. So that we can start the process of 
reconciliation.
    The forces that are portrayed as splitting up Iraq are 
simply not there. The United States can play a role to stem 
foreign influences which would take advantage of the situation 
in Iraq. Iraq's neighbors have not shown restraint in dealing 
with Iraq.
    I believe that the United States, externally, can contain 
the problem and can help the Iraqi people remain as one 
country.
    Senator Brownback. You call for the United States to 
establish these military exclusion zones by some support. No 
one can foresee the future, but how long would you project you 
would need U.S. protection of these zones established in the 
region if we were to go forward with such a strategy?
    Mr. Chalabi. Sir, I think this would not be a very lengthy 
process.
    Why do I say that? My view is that if Saddam loses the 
access to the sea and loses most of Iraq's oil production--and 
anyway, he would have no way to get it out to the world, and he 
would lose his access to the world--the people around Saddam 
who are very close to him would begin to question his 
capability of getting out of this.
    We have experience with that, again, when we were 
established in Iraqi Kurdistan in the north. We had many 
contacts from leading elements within Saddam's government who 
wanted some sign that we would be supported to take power in 
Iraq. And they have said that they would be prepared to deal 
with us.
    If these things--if the issue of a military exclusion is 
established and if we have a presence in those zones, and we 
are--it is perceived that we have the support of the United 
States, by enforcing this military exclusion zone, we believe 
that almost virtually all Saddam's military force, within a 
matter of months, will be over.
    I would remind you here, Senator, that the United States 
thought that they were going to have a no-fly zone for a short 
period of time. We are 7 years now.
    Senator Brownback. Yes.
    Mr. Chalabi. Yes. I mean, half measures will drag on. Full 
measures will come to closure.
    Senator Brownback. What does it do to the Iraqi people and 
to your group, with the administration here saying, well, we 
are not going to actively insist on the ouster of Saddam? You 
note that in your statement, that this has created difficulties 
for you. What does that do to you?
    Mr. Chalabi. It removes--you see, people think of the 
United States in the Middle East as able to do almost 
everything. You do not think so. Many Americans do not think 
so. But the impression that people have of the United States in 
the Middle East is that it can do a lot. If the United States 
says, Saddam, we do not want to remove Saddam or we are not 
working to remove him, they conclude they want him to stay. 
That is devastating for the Iraqi people and for opposition 
forces. And it is devastating for the regional states who want 
to oppose Saddam, when they hear that the United States does 
not want to remove him, and they seek to come to some 
compromise with him.
    Senator Brownback. So let me put the corollary to that. 
What if we declare that our objective is the destabilization 
and ultimately the ouster of Saddam Hussein?
    Mr. Chalabi. If you declare that and if you then take 
practical steps to demonstrate your seriousness, almost 
everybody in the Middle East, in the Arab world, will fall in 
line behind you.
    Senator Brownback. Senator Robb, another round?
    Senator Robb. Thank you, Mr. Chairman.
    Just to be clear on the last point that you made, if we 
take practical steps, the steps that you outlined, which would 
in effect constitute a continuation of current activities, plus 
some means to fund the activities of the Iraqi National 
Congress, is that what you are suggesting would be practical 
steps? Or are you suggesting something that would involve more 
overt and specific military action directed against Saddam 
Hussein or the leadership structure in Iraq?
    Mr. Chalabi. Sir, I would suggest, first, a political 
action. Which is working to indict Saddam Hussein. This is not 
military action. This is a political statement and a pursuit of 
a political and judicial objective by the United States. This 
would be taken very seriously, as a fact that the United States 
will not deal with Saddam as they would not deal with Karadich, 
for example.
    Senator Robb. I am not quarreling with that. And I 
understand that.
    Mr. Chalabi. The next thing that would be required is some 
form of demonstrable support for the opposition, a place where 
the opposition can operate from Iraq, as they did back before 
1996 August, from northern Iraq, where they were established 
with perceived United States protection.
    Senator Robb. But, again, does that involve, then, in 
your--in the case that you are suggesting, a specific 
commitment to use military force, whatever force might be 
necessary, to protect an area from Saddam's tanks, aggression 
of any kind, so that the Iraqi National Congress or some other 
fully constituted body or opposition body could operate with 
relative impunity in that area?
    Mr. Chalabi. Sir, we require an umbrella until we are armed 
ourselves by adequate weaponry.
    Senator Robb. But, again, umbrella can be a somewhat 
ambiguous way to describe it. Again, you specifically took 
issue with the failure to provide what you believed was the 
necessary support in northern Iraq in a previous instance. What 
are you suggesting the United States would make a commitment to 
do to fulfill the kind of an obligation that you have just 
suggested?
    Mr. Chalabi. To interdict the movement of Saddam's tanks 
and artillery from the air. That is the extent of what----
    Senator Robb. In other words, a no-fly, no-drive zone in 
and around the protected area would constitute, in your 
judgment, the practical limitations of the kind of support that 
you believe is necessary?
    Mr. Chalabi. Direct U.S. military support, plus acquiring 
arms, weapons, for us to deal with the smaller issues.
    Senator Robb. By acquiring arms, you mean providing arms or 
providing resources so that you can acquire arms?
    Mr. Chalabi. Either, sir. Either one will do. There are 
plenty of arms around the world available. If we have the 
resources, we can buy them. But we prefer that the United 
States provides them.
    Senator Robb. Well, this is departing just a bit from what 
was described earlier as free. Again, I am not attempting to 
take issue with you specifically, because I share and I think 
that the chairman is correct in saying that virtually all 
Members of Congress, and certainly the administration believes, 
that the Iraqi people would be far better off in a post-Saddam 
environment than they are today. I do not think anyone would 
question that. The means to accomplish that particular 
objective are disputed.
    Let me ask one other question.
    Mr. Chalabi. But, sir, may I say that if the decision is 
made to provide a loan to the provisional government, then part 
of this money would be used to purchase those things.
    Senator Robb. I understand that aspect of it. Again, I am 
going back to what additional commitment the United States 
would have to make to permit you and the Iraqi National 
Congress and any others who might act in concert with you to 
carry out the mission that you believe would ultimately result 
in a new government for the Iraqi people.
    Mr. Chalabi. Yes.
    Senator Robb. And as I say, we share the ultimate 
objective.
    You made a specific point of singling out King Hussein of 
Jordan in your testimony earlier, about having been enlisted by 
the United States in a hopeless coup attempt against Saddam 
Hussein from Jordanian territory, et cetera. I understand that 
Jordanian officials have raised some serious questions about 
activities that you may have been connected with, with 
Petrobank. For clarification and for our understanding of the 
relationship, and particularly the transfers of money that 
might be involved, could you clarify any misunderstandings that 
might exist on that front?
    Mr. Chalabi. Yes, sir. If you recall, during the eighties 
and the early nineties, Jordan was an ally of Saddam Hussein. I 
have and my family has a very longstanding relationship with 
the Jordanian Royal family. And we were invited to make this 
institution in Jordan.
    I built this institution. However, my opposition to Saddam 
Hussein was known. In 1989, Saddam exerted pressure on the 
King. And the friends of Saddam came to power in Jordan. And I 
became a victim of a coup, a martial law coup, to take over 
this institution. And that is what happened. They took over the 
bank by a martial law coup. And they tried to run it for a 
year. They were unable to. They liquidated it. And I became a 
victim of a martial law military tribunal. That is the story.
    Now, I have a written document, which I can provide for 
you, explaining this and explaining all these things. However, 
I should point out to you----
    Senator Robb. Let me just add that any information you have 
that would bear on this subject that you could provide to the 
committee would be very much appreciated.
    Mr. Chalabi. I have that with me today. I can provide it to 
you.
    However, I would like to point out to you that I met with 
King Hussein subsequent to that incident several times. And he 
embraced me and we talked about the political future of Iraq. I 
also met with the Crown Prince several times in public areas, 
and we continue to conduct a relationship with them. They tried 
to solve this problem, but the current situation on the ground 
in Jordan now is very difficult. They cannot appear to be 
helping a leading opponent of Saddam Hussein. They would run 
into difficulty inside the country.
    Senator Robb. But may I interpret from your response to 
that question that if the situation with respect to Saddam 
Hussein were resolved to the satisfaction of the Iraqi National 
Congress and the regional countries that are most concerned 
about his potential threats and intimidation in the absence of 
any resolution to this question, that the concern that has been 
expressed by Jordanian officials would disappear? That this is 
the type of concern that must remain alive in the context of 
the uncertain environment that we are experiencing today, but 
would not continue beyond the resolution of the Iraqi 
leadership question?
    Mr. Chalabi. I believe so, sir. I think that any concern 
would disappear right away. But I believe that the leading 
Jordanian officials will tell you privately that the concern is 
no longer there.
    Senator Robb. Well, if you would provide that to the 
committee, it would be very much appreciated.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Robb.
    Mr. Chalabi, thank you very much for your courage and your 
commitment. You have presented a very clear statement and 
commitment and concern and direction for us to be able to mull 
over. Some of those actions this committee will be taking up in 
considering shortly. So, thank you for that and Godspeed.
    Mr. Chalabi. Thank you.
    Senator Brownback. We will call up the next panel, the Hon. 
R. James Woolsey, former Director of the Central Intelligence 
Agency here in Washington, D.C.; Dr. Zalmay Khalilzad, Director 
of the Strategy and Doctrine Program, Project Air Force, for 
the RAND Corporation; and Dr. Richard N. Haass, Director of 
Foreign Policy Studies of the Brookings Institute.
    We appreciate you gentlemen very much for being here and 
for sitting through the prior testimony. You may want to--and 
we will take all of your written statements in for the record. 
I think you can get a flavor of what the committee is 
interested. And certainly all of you are familiar with this 
discussion taking place. So I think you are very cognizant of 
what Congress is chewing on. And that is, how do we get rid of 
the real problem, and can we get rid of the real problem, which 
is Saddam Hussein?
    And so we hope you can give us very clear and forthright 
testimony as we go forward.
    Mr. Woolsey, we have got you first down on the program, so 
if you would care to present your statement, we would 
appreciate that. Thanks for joining us.

   STATEMENT OF R. JAMES. WOOLSEY, FORMER DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman. And I appreciate the 
committee's indulgence. When I received the call about 
testifying today, late last week, I was out of town. I got back 
last night. So I have no prepared written statement. If it is 
all right, I will speak extemporaneously for just a few minutes 
on four points: What I perceive to be the essence of the 
problem, what mistakes we have made in the past, what we ought 
to do now, and what we ought not to do now.
    As the chairman knows, I was Director of Central 
Intelligence from February 1993 to January 1995. And so for the 
last 3-plus years, I have been an outside observer of this 
issue, and I have no inside knowledge dating from after January 
1995. In my judgment, the essence of the problem is the 
Baathist nationalist regime, which Saddam heads--it, and he as 
its head--are guilty of murder of both the Iraqi people, to a 
great extent, and also of aggression against Iraq's neighbors, 
on certainly more than one occasion.
    This is a major matter for the United States, I believe, 
for three reasons. First of all, because of our concern for the 
Iraqi people and their neighbors, both those who are oppressed 
and those who would be oppressed if Saddam's aggression 
succeeds in the future. Second, his possession of weapons of 
mass destruction and the wherewithal to make more of them, and 
ballistic missiles to carry them. And, third, the fact that 
this whole dispute sits right at the heart of approximately 80 
percent of the world's proven oil reserves. About 65 percent of 
those reserves lie in the Persian Gulf, and perhaps another 15 
percent or so in the basin of the Caspian Sea just north of the 
area we are talking about.
    So approximately 80 percent of the world's oil reserves, 
over the long run, are essentially held by one of two types of 
regimes now: psychopathic predators, such as Saddam's regime, 
or vulnerable autocrats. And that is not a happy situation for 
the world, for any of us.
    Second, what mistakes have we made in the past with respect 
to dealing with Iraq?
    In my judgment, beginning almost in the closing hours of 
the Gulf War, at the end of the Bush administration and for the 
first 5-plus years of this administration, our policy with 
regard to Iraq has been both flaccid and feckless. We have had 
no long-run strategy for dealing with this nation and the 
threat that its government poses.
    In 1991, as Mr. Chalabi said, we abandoned the Marsh Arabs, 
the Shia of the South, to being murdered in large numbers by 
Saddam's forces, when we had the forces there to stop it. In 
1993, it was as demonstrable as these things ever get that 
Saddam and his regime attempted to assassinate former President 
George Bush. The U.S. Government, at the time, fired a few 
cruise missiles at night into an empty building so that no one 
would be hurt, a pinprick response. And in 1996, when Saddam 
came north into Arbil, murdering hundreds of Iraqis, perhaps 
thousands, the United States and its military force, 
particularly its air power, also stood silent.
    Why did we follow these policies from the spring of 1991 
until today?
    I believe there are two reasons. First, there has been a 
general view, I suppose, among government policymakers that it 
is better to bear those ills we have than fly to others that we 
know not of. People have been concerned to some extent about 
the dissolution of Iraq and the uncertainties that would be 
produced by some future absent Saddam. And, second, we have 
listened rather closely to some of Iraq's neighbors, our 
friends in Saudi Arabia and otherwise, who were particularly 
concerned about uncertainty.
    On the whole, I believe this has been a bad call. It has 
been a mistake to avoid the uncertainty of the future and to 
believe we could deal with a weakened Saddam instead. I believe 
both the Bush administration and the Clinton administration 
have made that mistake.
    Third, what should we do now?
    We have not had a long-term strategy, and we need one. I 
agree with Mr. Chalabi, what we need is an open program, no 
more covert than absolutely necessary. I would hope that it 
could be entirely open. I might call it containment-plus, but 
that is a big plus.
    I believe we need to espouse democracy and representative 
institutions for Iraq. I believe that the desire of the Iraqi 
people on this can be made clear and will become clear as that 
goal becomes more likely. I believe the Iraqi people and their 
neighbors and the world deserves an Iraqi Government with 
leaders who exhibit the values for which Mr. Chalabi speaks, 
rather than the danger for all of us exhibited by Saddam's 
regime.
    The only point at which I would differ with him is that I 
believe such a policy is not easy, and it may take years. We 
have already wasted over 6 years by the feckless and flaccid 
policy we have had since the spring of 1991. And it may well 
take a long time before what he has suggested, and others will 
suggest and I am suggesting, will take effect. Nonetheless, one 
has to begin when one can begin.
    I believe it would be wise for us to recognize a government 
in exile. Probably the Iraqi National Congress is the only 
realistic place to start. We should use sea power to stop 
Saddam's smuggling of oil from which he gains substantial 
resources today. I would not object to fully controlled sales, 
such as the Security Council has approved, the proceeds of 
which would go to the Iraqi people for food and medicine. But 
the smuggling which goes on in the Gulf, we should stop.
    Insofar as it is possible, we should provide any frozen 
assets or loans based on such assets to such a government in 
exile, either to make it possible for it to arm itself or to 
assist with arms, particularly some specialized arms such as 
antitank weapons.
    I believe we should remove the sanctions from the liberated 
areas of Iraq. And if those areas expand, continue to remove 
sanctions from areas that are not under Saddam's control. If 
possible, any liberated areas should be able to export oil and 
to profit thereby.
    I think it is wise and important to bring charges against 
Saddam and others senior in his government for war crimes 
before international tribunals. I believe that we should 
protect the north and the south with air power, as Mr. Chalabi 
suggested--as we did not do in 1991 and as we did not do in 
1996--whenever Saddam seeks to exercise military power in those 
parts of the country.
    Saddam is in breach of the current cease-fire, which has 
been in effect since the spring of 1991. And I believe we need 
no further authority to conduct ourselves in such a way as to 
enforce that cease-fire.
    I believe broadcasting into Iraq is an excellent idea. Lech 
Walesa and Vaclev Havel both said that Radio Free Europe was 
the single most important thing that the United States did 
during the cold war.
    Based on my prior occupation for 2 years, a bit of pride 
suggests that I should at least remind this committee that for 
most of its existence, Radio Free Europe was a CIA covert 
action. It ceased being covert in the 1970's. It is now a fine 
functioning institution. I know that the head of Radio Free 
Europe, Mr. Thomas Dyne, would be delighted to begin 
broadcasting into Iraq, and it would also be fine, I believe, 
for the Iraqi government in exile, of course, to do that.
    I believe that we should prepare to use force from the air 
when--and I do not say if--when Saddam violates the most recent 
agreement that was negotiated by Kofi Annan. When that 
violation occurs, when he blocks inspections, we should not 
limit our air strikes to sites where there might or might not 
be weapons of mass destruction or the wherewithal to produce 
them. The latter would be very difficult to do, to have any 
particular effect on weapons of mass destruction, because the 
ones we are most concerned about--for example, biological 
weapons--are not only small themselves and easily moved, but 
they are also made by equipment which is small and easily 
moved.
    Making anthrax is just about as difficult as running a 
microbrewery attached to a restaurant, with one or two added 
steps added. And the equipment can be packed up just about that 
easily. There are 100 million lethal doses in a gram of 
anthrax, at least theoretically. And Secretary Cohen's 5-pound 
bag of sugar, if distributed properly, could kill hundreds of 
thousands of people.
    So I believe that it is important for us to realize that as 
the Special Republican Guard and the Special Security 
Organization, which are responsible for Saddam's security, 
themselves move around the country, hiding him and also moving 
weapons of mass destruction and the wherewithal to make them, 
it is going to be very difficult for us to find important and 
useful targets associated, for example, with anthrax 
production. But we should prepare, of course, when he next 
blocks inspections, to destroy the air defenses of Iraq, to 
have a major effect by using air strikes on the infrastructure 
of his government--and by that I mean the Republican Guard and 
their weapons--and to destroy, if we can, some of the sites 
that might be associated with weapons of mass destruction and 
ballistic missiles.
    I believe we should also use that opportunity to establish 
a no-fly zone over the entire country. If Saddam had not been 
able to move infantry around by helicopter in the past, he 
would have had more difficulty than he has had in putting down 
revolts and rebellions in the north and the south.
    What should we not do?
    I believe, first of all, we should not deceive ourselves 
that this agreement of the last few days is going to last. My 
attitude toward it is very much the one that Mr. Chalabi 
expressed.
    I believe that we should also not, at least at the present 
time, consider invading Iraq with ground forces. I do not 
believe that is necessary, and also I do not believe there is 
the support here or in the Congress or among our allies to do 
it.
    I also do not believe that we should attempt to assassinate 
Saddam or even arrange a coup against him. This is not 
Afghanistan. We do not have an outside base of operations in 
order to support activities such as those we supported in 
Afghanistan in the 1980's. And as far as assassinations go, at 
the present writing, they are of course a violation of American 
law, since they violate the executive order. Executive orders 
can, in principle, be changed.
    But, in practical terms, it would be impossible, I believe, 
to find Saddam, in case anyone should actually want to try such 
an undertaking. If he were killed, I believe that we would be 
most likely to get a continuation of the Baathist nationalist 
regime and in individuals making decisions who are as 
undesirable and virtually lawless as he.
    And, finally and most importantly--although if I had been 
other than an infant during the time of World War II and had 
been in a position of government decisionmaking--yes, I would 
have supported American assistance to the assassination of 
Hitler, if we had been able to figure out how to do that. But 
World War II was a struggle to the death, a world war between a 
whole totalitarian system and our own way of life. I believe 
that as the world's dominant political, economic and, in many 
ways, cultural power, the United States should not tell the 
world now that we support assassination as a tool of 
statecraft.
    I believe it was wrong for us to try such assassinations of 
Fidel Castro in the early 1960's. I believe that by making 
assassination a tool of foreign policy in ordinary times, times 
other than something like World War II, we send a signal to the 
world that undercuts American values. That also signals to much 
of the world that we believe it is appropriate for them to use 
assassination as such a tool.
    The United States has dealt with terrible dictators before, 
over the course of many years. And we have triumphed. We are 
still here and most of them are not. We can triumph again. But 
I believe the only way we will triumph--and it will probably be 
something that will take a number of years--is by cleaving 
objectively and clearly to our democratic values and to 
institutions of Iraqis who support those values.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Mr. Woolsey.
    And I certainly agree with your statement, that we should 
not revert to the use of assassination attempts as a nation. It 
does undermine us severely, I think, in what we stand for. And 
it seems like to me, a number of people are making the case 
here that we should be very open and very clear about what our 
intents are in the Middle East, particularly dealing with Iraq.
    I look forward to some questioning.
    Dr. Khalilzad, thank you very much for joining us today, 
and we look forward to your testimony.

STATEMENT OF ZALMAY KHALILZAD, DIRECTOR, STRATEGY AND DOCTRINE 
          PROGRAM, PROJECT AIR FORCE, RAND CORPORATION

    Dr. Khalilzad. Thank you very much, Mr. Chairman.
    I should like to begin my statement with four broad points 
on our objective and strategy toward Iraq. First, since the end 
of the Gulf War, one of our main objectives in dealing with 
Iraq has been the elimination of its weapons of mass 
destruction and its long-range missile programs. Although 
significant progress has been made, Iraq has refused to come 
clean and give up completely its weapons of mass destruction 
and long-range missile programs.
    The recent agreement brokered by Kofi Annan will probably 
do little to change this. Saddam has repeatedly agreed to 
cooperate with the U.N. before, and has just as frequently 
broken his promises.
    Second, a gap is evident between our objectives, the 
elimination of Iraq's WMD and missile programs and our 
containment strategy as practiced, which has included, among 
other things, no-fly zones and the occasional use or threat of 
use of military strikes. This strategy has not produced the 
elimination of the WMD programs. Although some argue that we 
may eventually succeed if we stay the course in the coming 
years, this is becoming increasingly difficult. Support for our 
strategy is eroding, both in the region and in the world.
    Third, if we continue with our current approach, we will 
probably ultimately confront two alternatives. One, abandoning 
our objective and allowing Iraqi WMD and missiles, or sending a 
large number of U.S. air and ground forces to Iraq for combat 
to eliminate both Saddam and his WMD program.
    Fourth, we can still avoid these unpleasant alternatives. 
In addition to maintaining a robust military capability in the 
region and pressing Iraq to allow UNSCOM to do its job, we 
should seriously consider encouraging the establishment of and 
support for a broad-based opposition to remove Saddam from 
power. The ultimate goal should be to establish a regime that 
has peaceful intentions in the region, pursues good relations 
with the United States, and respects the rights of the Iraqi 
people.
    Can Saddam Hussein be overthrown?
    That is the question, Mr. Chairman, that you asked. In my 
judgment, overthrowing Saddam will be difficult. He has a large 
security and intelligence apparatus devoted to his personal 
security. He is brutal and has killed, as Mr. Chalabi 
mentioned, tens of thousands of his people. Nevertheless, he 
can be overthrown. There are, in my judgment, several options.
    First, a U.S.-led military operation to liberate Iraq. This 
will require a large-scale military operation, involving air 
and ground forces. An invasion of Iraq could involve 
significant casualties and might risk involvement in a 
protracted war. Once Saddam is removed from power, the United 
States would incur long-term obligations and costs of 
occupation.
    Air strikes are unlikely to do the job by themselves, even 
if a carefully considered decision was made to go after Saddam. 
He moves frequently, employs deception, and maintains tight 
security about his location and his movements. To succeed, one 
would need real-time intelligence on his location and the 
capability to strike targets effectively within the window 
provided by intelligence.
    Second, encouraging the Iraqi military to remove him from 
power. Since Desert Storm, this has been the option tacitly 
sought by the United States. According to press reports, we 
have provided support and encouragement to former military 
officers for such an operation.
    However, all attempted coups against Saddam have failed. He 
has been both efficient and ruthless in crushing coup plotters. 
Whether future coup attempts will succeed remains uncertain. 
Equally uncertain is the type of regime that might be produced 
by a military coup. It is likely that a coup would produce 
another dictatorial regime.
    Three, supporting the Iraqi people in establishing a broad-
based and democratic opposition, and assisting it in starting 
an effective insurgency, aimed at liberating the country from 
Saddam Hussein. A new regime produced by such a movement is 
likely to be better in terms of Iraqi and U.S. interests than 
continued rule by Saddam or another military regime.
    Why have past efforts to support the Iraqi opposition 
failed?
    The best opportunity to remove Saddam from power was in 
1991, when Iraqis in the southern and the northern parts of the 
country rebelled. The Iraqi opposition included some senior 
military officers, who wanted U.S. assistance to liberate their 
country. The U.S. could have helped the opposition efforts by 
allowing them access to captured Iraqi military equipment and 
by preventing Saddam's use of helicopters and tanks to put them 
down.
    Once it became clear that Saddam would not fall without any 
U.S. role, the United States changed course and began to 
encourage unrest. Starting in 1991, the U.S. sought to remove 
Saddam by encouraging coups and providing limited support to 
opposition movements, such as the National Congress that Mr. 
Chalabi represents, and the Iraqi National Accord.
    The U.S. efforts, while well intentioned, were flawed. The 
U.S. effort had serious limitations. First, the U.S. spent 
roughly $100 million to aid the opposition. But much of that 
money was spent for public relations and propaganda, not 
military aid. The military arms of the opposition remained 
weak.
    Second, the U.S. was not willing to compensate for 
opposition military weakness by providing direct military 
support when the opposition forces engaged the Iraqi armed 
forces. This refusal resulted in the opposition's loss of 
confidence in the United States. As a result, U.S. influence 
over the opposition also declined over time.
    After 1991, the U.S. had developed excellent ties with the 
two main Kurdish groups. But by 1996, one of the groups had 
come under Iran's influence and the other under Saddam's.
    Third, the U.S. also did not convince key regional states, 
such as Turkey, Kuwait, Saudi Arabia, and Jordan, that 
effective support for the opposition was in their strategic 
interest.
    Fourth, and finally, the U.S. refused to protect Saddam's 
opponents in 1996, when he moved against them in the Northern 
Security Zone. Hundreds of opposition members who worked with 
the U.S. were evacuated to Guam, and hundreds more were killed.
    What can be done now?
    In my judgment, it is not too late to build a broad-based 
resistance movement to Saddam Hussein that could, in time, 
overthrow the current regime. Success will require a determined 
effort and cooperation from regional states. Such an effort 
would require the following measures:
    First, we must regain the confidence of the Iraqi people. 
Since 1991, they have had the worst of both worlds: Saddam and 
sanctions. Given their experience, many Iraqis do not believe 
that we want Saddam removed. To change their mind about U.S. 
intentions will require both forceful statements supporting the 
overthrow of Saddam Hussein and concrete actions.
    Second, Washington should encourage establishment of a 
broad-based opposition, including Kurds and Arabs, both Shiite 
and Sunnis. In cooperation with Turkey, we should seek an end 
to the war between the two Kurdish factions, the Kurdish 
Democratic Party and the Patriotic Union of Kurdistan.
    In addition, the resistance forces should expand their 
activities from the Shiite south and the Kurdish north to the 
tribal regions in western Iraq.
    Third, the resistance forces will need to develop a strong 
military arm. And here perhaps I differ a little bit with Jim.
    To do this, they will need military assistance, including 
antitank equipment, intelligence, training, and logistical 
support. The opposition will also need political support, 
including the establishment of a Radio Free Iraq.
    Fourth, the resistance forces will need support from key 
regional states, such as Turkey, Kuwait, Saudi Arabia, and 
Jordan. Getting the regional states to go along will require 
U.S. leadership. Turkey is likely to become willing to provide 
a logistical base of support for the Iraqi resistance forces if 
it is assured a key role in the distribution of assistance. 
Such a role will alleviate Turkish fears and concerns that a 
strong Kurdish movement in Iraq will spread to Turkey or 
produce an independent Kurdistan.
    Saudi Arabia and Kuwait, both of which have expressed 
support for the establishment of a new regime in Iraq, should 
provide logistical support and share the cost of supporting the 
anti-Saddam resistance movement.
    Jordan can play a key role in support of resistance in 
western Iraq. Amman already is home to some of the opposition 
groups.
    Fifth, as the resistance grows, it will require more 
financial support. The U.S. should consider supporting the 
lifting of sanctions on areas of Iraq that come under the 
control of the provisional government. On this I agree with 
what Jim has said. Similarly, we should be willing to support 
the release of frozen assets, as Mr. Chalabi mentioned, which 
amount to over $1.5 billion, to the provisional government.
    Sixth, the U.S. should maintain a robust military 
capability in the area, both to coerce Saddam and to support 
the Iraqi resistance. Moreover, should we use force against 
Saddam the next time he violates his agreements, we should 
launch a campaign that also takes the needs of the Iraqi 
resistance into account. Targets could include Saddam's pillar 
of power, such as the Republican Guards, his intelligence 
organizations, and part of his control apparatus. Air power 
could also help create safe havens in the south and in the 
west.
    We could go further and use our forces in the region to 
protect the areas that come under the control of the 
provisional government.
    The above strategy, I do not want to mislead, will be very 
difficult to follow. And success is not certain. However, the 
current policy of mixing sanctions with the threat of force is 
losing support.
    Thus, unless we are willing to accept an Iraq armed with 
weapons of mass destruction, we must consider adjusting our 
strategy.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Khalilzad follows:]

                 Prepared Statement of Zalmay Khalilzad

    Mr. Chairman, I want to thank you for this opportunity to testify 
before this subcommittee on Iraq and to commend you for holding this 
hearing. Now is a good time to review our objective and our strategy. 
The views expressed here are my own and should not be interpreted as 
representing those of the RAND Corporation or any of the agencies or 
others sponsoring its research.
    I should like to begin my statement with four broad points on our 
objectives and strategy towards Iraq.
    (1) Since the end of the Gulf war, one of our main objectives in 
dealing with Iraq has been the elimination of its weapons of mass 
destruction (WMD) and its long range missile programs. Although 
significant progress has been made, Iraq has refused to come clean and 
give up completely its weapons program. The recent agreement brokered 
by Kofi Annan will probably do little to change this. Saddam has 
repeatedly agreed to cooperate with the UN and just as frequently 
broken his promises.
    (2) A gap is evident between our objective--the elimination of 
Iraq's WMD and missile programs--and our ``containment'' strategy, 
which has included among other things sanctions, ``no fly'' zones, and 
the occasional use or threat of military strikes. This strategy has not 
produced the elimination of the WMD programs. Although some argue that 
we may eventually succeed if we stay the course in the coming years, 
this is becoming increasingly difficult. Support for our strategy is 
eroding, both in the region and in the world.
    (3) We will probably ultimately confront two alternatives: 
abandoning our objective and allowing Iraqi WMD and missiles or sending 
a large number of US air and ground forces to Iraq for combat to 
eliminate both Saddam's regime and his WMD program.
    (4) We can still avoid these unpleasant alternatives. In addition, 
to maintaining a robust military capability in the region and pressing 
Iraq to allow UNSCOM to do its job, we should seriously consider 
encouraging the establishment of and support for a broad-based 
opposition to remove Saddam from power. The ultimate goal should be to 
establish a regime that has peaceful intentions in the region, pursues 
good relations with the United States, and respects the rights of the 
Iraqi people.

                 Will Saddam's Overthrow Be Beneficial?

    The removal of a leader does not always produce positive results. 
In the case of Iraq, however, things cannot be worse. Saddam has killed 
hundreds of thousands of Iraqis, invaded two of his neighbors, used 
chemical weapons with disturbing regularity, spoiled the Gulf 
environment with oil slicks and burning the Kuwait oil fields, 
supported international terrorism, pursued weapons of mass destruction, 
and sought regional hegemony. Thus, it is hard to imagine a successor 
regime worse than Saddam. But the question is not just would a new 
leader be better, but how to ensure that the successor government was 
the best possible one for the United States, the region, and the people 
of Iraq.
    The replacement of Saddam by another strongman, while a marginal 
improvement, is not enough. Another dictatorship bent on regional 
hegemony is unlikely to seek regional peace or give up Iraqi weapons of 
mass destruction. Only a broad-based democratic regime offers the best 
prospects for an Iraq which pursues peace at home, with the Gulf states 
and with the United States. Such an Iraq can be integrated in regional 
security arrangements and can have the confidence to give up its WMD 
and long range missile programs.

                   Can Saddam Hussein be Overthrown?

    Overthrowing Saddam is difficult. He has a large security and 
intelligence apparatus devoted to his personal security. He is brutal 
and has killed thousands of his opponents. Nevertheless, he can be 
overthrown. There are several options:
    (A) U.S.-led military operations to liberate Iraq. This will 
require a large-scale military operation involving air and ground 
forces. An invasion of Iraq could involve significant casualties and 
might risk involvement in a protracted war. Once Saddam is removed from 
power, the United States would incur long-term obligations and costs of 
occupation. Air strikes alone are unlikely to do the job even if a 
carefully considered decision was made to go after Saddam. He moves 
frequently, employs deception, and maintains tight security about his 
locations and his movements. To succeed, one would need real-time 
intelligence on his location and the capability to strike targets 
effectively within the window provided by intelligence.
    (B) Encourage the Iraqi military to remove him from power. Since 
Desert Storm, this has been the option tacitly sought by the United 
States. According to press reports, we have provided support and 
encouragement to former military officers for such an operation. 
However, all attempted coups against Saddam have failed. He has been 
both efficient and ruthless in crushing coup plotters. Whether future 
coups attempts will succeed remains uncertain. Equally uncertain is the 
type of regime that might be produced by a military coup. It is likely 
that a coup would produce another dictatorial regime.
    (C) Supporting the Iraqi people in establishing a broad-based and 
democratic opposition and assist it in starting a more effective 
insurgency aimed at liberating their country from Saddam Hussein. A new 
regime produced by a such a movement is likely to be better in terms of 
Iraqi and US interests than continued rule by Saddam or another 
military regime.

        Why Past Efforts to Support the Iraqi Opposition Failed?

    The best opportunity to remove Saddam from power was in 1991, when 
Iraqis in southern and northern parts of the country rebelled. The 
Iraqi opposition, including some senior military officers, wanted U.S. 
assistance to liberate their country. The U.S. could have helped the 
opposition efforts by allowing them access to captured Iraqi military 
equipment and by preventing Saddam's regime from using helicopters and 
tanks to put down the opposition.
    Once it became clear that Saddam would not fall without any U.S. 
role, the United States changed course and began to encourage unrest. 
Starting in 1991, the U.S. sought to remove Saddam by encouraging coups 
and providing limited support to opposition movements such as the Iraqi 
National Congress and the Iraqi National Accord.
    The U.S. efforts, while well intentioned, were flawed. U.S. efforts 
had several limitations:
    First, The U.S. spent roughly $100 million to aid the opposition, 
but much of the money was spent for public relations and propaganda, 
not military aid. The military arms of the opposition remained weak.
    Second, the U.S. was not willing to compensate for opposition 
military weakness by providing direct military support when the 
opposition forces engaged the Iraqi armed forces. This refusal resulted 
in the opposition's loss of confidence in the U.S. As a result, U.S. 
influence over the opposition also declined over time. After 1991, the 
U.S. had developed excellent ties with the two main Kurdish groups, but 
by 1996 one of the groups had come under Iran's influence and the other 
under Saddam's.
    Third, The U.S. also did not convince the key regional states such 
as Turkey, Kuwait, Saudi Arabia and Jordan that support for the 
opposition was in their strategic interest.
    Fourth, the U.S. refused to protect Saddam's opponents in 1996 when 
he moved against them in the Northern Security Zone. Hundreds of 
opposition members who worked with the U.S. were evacuated to Guam and 
hundreds more were killed.

              What is the Current State of the Opposition?

    Saddam today lacks in popular support and terror is his main 
weapon. A number of forces including some tribes, secular and religious 
parties, and ethnically-based movements are willing to defy the Iraqi 
dictator. However, the opposition is fractured. They do not coordinate 
their activities, and some of the resistance forces might be penetrated 
by Saddam. Although the potential for broad popular support is there, 
the groups have been unable to mobilize it. In addition, the opposition 
lacks substantial external support. Indeed, the limited support 
provided by rival external powers actually hinders cooperation, as 
Iraq's neighbors have different intentions and thus support different 
opposition movements.

                         What Can be Done Now?

    It is not too late to build a broad-based resistance movement to 
Saddam Hussein that could, in time, overthrow the current regime. 
Success will require a determined effort and cooperation from regional 
states. Such an effort would require the following measures:
    First, we must regain the confidence of the Iraqi people. Since 
1991, they have had the worst of both worlds: Saddam and sanctions. 
Given their experience, many Iraqis do not believe that we want Saddam 
removed. To change their mind about U.S. intentions will require both 
forceful statements supporting the overthrow of Saddam Hussein and 
concrete actions.
    Second, Washington should encourage the establishment of a broad-
based opposition--including Kurds and Arabs--both Shiites and Sunnis. 
In cooperation with Turkey, we should seek an end to the fratricidal 
war between the two Kurdish factions--the Kurdish Democratic Party and 
Patriotic Union of Kurdistan. In addition, the resistance forces should 
expand their activities from the Shiite South and the Kurdish North to 
the tribal regions in western Iraq.
    Third, the resistance forces will need to develop a strong military 
arm. To do so, they will need military assistance, including anti-tank 
equipment, intelligence, training, and logistical support. The 
opposition will also need political support, including the 
establishment of a Radio Free Iraq.
    Fourth, the resistance forces will need support from key regional 
states such as Turkey, Saudi Arabia, Kuwait and Jordan. Getting the 
regional states to go along will require U.S. leadership. Turkey is 
likely to become willing to provide a logistical base of support for 
Iraqi resistance forces if it is assured a key role in the distribution 
of assistance. Such a role will alleviate Turkish fears that a strong 
Kurdish movement in Iraq will spread to Turkey. Saudi Arabia and 
Kuwait, both of which have expressed support for the establishment of a 
new regime in Iraq, should provide logistical support and share the 
cost of supporting the anti-Saddam resistance movement. Jordan can play 
a key role in support of resistance in western Iraq. Amman already is 
home to some of the opposition groups.
    Fifth, as the resistance grows, it will require more financial 
support. The U.S. should consider supporting the lifting of sanctions 
on areas of Iraq that come under the control of the provisional 
government. Similarly, we should be willing to support the release of 
frozen Iraqi assets, which amount to over 1.5 billion dollars to the 
provisional government.
    Sixth, the U.S. should maintain a robust military capability in the 
area both to coerce Saddam and to support the Iraqi resistance. 
Moreover, should we use force against Saddam the next time he violates 
his agreements, we could launch a campaign that also takes the needs of 
the Iraqi resistance into account. Targets could include Saddam's 
pillars of power such as the Republican Guards, his intelligence 
organizations, and parts of his control apparatus. Air power could also 
help create safe havens in the South and West. We could go further and 
use our forces in the region to help protect the areas that come under 
the control of the provisional government.
    The above strategy is difficult, and its success is not certain. 
However, the current policy of mixing sanctions with the threat of 
force is losing support. Thus, unless we are willing to accept an Iraq 
armed with weapons of mass destruction, we must consider adjusting our 
strategy.

    Senator Brownback. Thank you, and for your clarity of 
statement that you give us. And we look forward to some 
questioning.
    Dr. Haass, thank you very much for joining our committee 
and for being so patient. The floor is yours.

STATEMENT OF RICHARD N. HAASS, PH.D., DIRECTOR, FOREIGN POLICY 
               STUDIES, THE BROOKINGS INSTITUTION

    Dr. Haass. Thank you, Mr. Chairman. And thank you and 
Senator Robb for this opportunity. I am also glad to appear 
next to my two colleagues here, who gave extraordinarily 
thoughtful statements.
    If it is acceptable with you, I will just make a few 
remarks and have a formal statement for the record.
    Senator Brownback. Without objection.
    Dr. Haass. Thank you.
    You asked the question, and it is an important one, which 
is whether Saddam can be overthrown. The first question, 
though, is should he be overthrown. And I do not think we 
should assume that the answer to that is yes. I, however, would 
argue--and I think most people here would agree--that clearly, 
the people of Iraq would be better off if Saddam were to be 
overthrown. But it is also important to recognize that simply 
getting rid of Saddam is not a panacea. That alone will not 
solve the problems posed by Iraq for the United States.
    Second, to say that Saddam should be overthrown--or to put 
it another way, and I think Senator Robb used this formulation, 
that the people of Iraq would be better off if he were to go--
is not the same as saying that his overthrow ought to dominate 
American foreign policy. It is not enough for a policy aim to 
be desirable. It has also got to be doable.
    And, secondly, you have got to look at the costs and 
benefits of a particular policy, and weigh it against the 
alternatives. To be specific, while I believe that the 
overthrow of Saddam Hussein would be desirable, I am not that 
sure it is doable. And I do not believe, on balance, that a 
policy that is dedicated to that end would be the best policy 
for the United States to adopt at this point.
    Let me explain how I came to this conclusion. I can only 
think of three ways to overthrow Saddam Hussein. First is 
assassination. And there I essentially subscribe to everything 
Jim Woolsey, the former Director of Central Intelligence, had 
to say. It is hard to do. It is in some ways morally wrong to 
do.
    And the only point I would add to what he said is that we, 
living in perhaps the most open society in the world, we have 
got to think twice, and then some, before we try to make 
assassination a more common practice of international 
relations. Americans are members of what is the most vulnerable 
of all societies to assassination. We really ought to think 
long and hard before we try to make this a more acceptable 
practice in international relations.
    Secondly, many people have put forth the idea of 
occupation, building on the model of Germany and Japan after 
World War II or in some ways the model more recently of Haiti 
and Panama; namely, that we would go in, we would occupy Iraq, 
we would hunt down Saddam, we would arrest him, and we would 
try then to set up a political process which brought about a 
more desirable regime.
    It would be too hard to do, too expensive to do. The 
American people would have a real problem with the cost of that 
policy. Even more so, people and governments of the region 
would have real problems with it.
    What began as a liberation would very quickly look like an 
occupation. And I just think we would get bogged down in Iraq. 
And it would be, again, terribly, terribly complicated and 
expensive by every measure of the word ``expensive'' to pull 
off.
    What about the third approach? It is sometimes called the 
Afghan model. It is sometimes called the liberation model. It 
is essentially what Mr. Chalabi was talking about before you 
today. And we heard versions of it both from Mr. Woolsey and 
Dr. Khalilzad.
    The more I look at it the less I am convinced that it is 
viable. And I wish my conclusions were otherwise, but they are 
not. And I have come to this conclusion for several reasons. 
First of all, one cannot speak of the Iraqi opposition as if it 
were a singular entity. Despite the existence of the 
organization that Mr. Chalabi represents, there are really 
Iraqi oppositions, in the plural. They are not simply rival 
organizations, but there are very powerful factions within his 
organization.
    So the idea that one has sitting out there this Iraqi 
opposition that is unified and ready to act cohesively is 
correct. Were it only so, but I am afraid it is not.
    Second, even an optimist would have to agree that a process 
along these lines that we have heard explained here today would 
take years. Which is another way of saying this proposed policy 
of liberation does not offer an answer to the United States 
during that time. We need a policy for the next several years 
at a minimum. And I would argue that policy ought to be 
containment. Because, even at best, a policy of liberation is 
not a near-term answer.
    Third, I think we have underestimated the risks, at least 
in the conversation I have heard here today. Yes, one can speak 
of historical parallels, but there are also negative historical 
parallels. Hungary comes to mind in 1956, as does the Bay of 
Pigs several years later.
    So I think there is a real risk for the United States. What 
happens if a little bit of American help is not enough? If a 
little bit of help to protect an enclave is not enough? If a 
little bit of air power is not enough? We are then on the hook 
of one of two decisions. Either we leave people in the lurch, 
which I would think is morally indefensible, or we have to get 
involved completely, which leads us to the previous option, 
which is essentially invading and occupying Iraq.
    This option is fine--the liberation option, I mean, is 
fine--but only if you assume it works. The real problem with 
the liberation option is that it is all too easy to see why it 
will not work. In which case, again, I think we are presented 
with a terrible, terrible choice.
    As others have pointed out, there is a lack of local 
partners. I simply do not see who in this case would be our 
Pakistan. What would be the country that would funnel in the 
arms and provide a base for American support?
    I do not see any local state ready to step up to that. In 
part, this is because they are not 100 percent sure about the 
goals of the Iraqi opposition. And, above all, the Turks are 
not sure. Despite pronouncements to the contrary from the 
Kurds, I have yet to meet a Turkish official who in his heart 
of hearts was not worried that the real goal or the real 
outcome of this process would be increased pressures for a 
separate, independent Kurdistan, something that would threaten 
the integrity of Turkey, which is, as you know, a NATO ally and 
a close friend.
    Let me state two other problems with what I see as the 
liberation, or Afghan, model.
    First, I fear it could be counterproductive. It could 
actually reinforce the Sunni core. We saw something like that 
in 1991 in Iraq, when largely geographically and ethnically 
based opposition movements, in the north with the Kurds and in 
the south with the Shia, had the boomerang effect of increasing 
the disposition of the largely Sunni Moslem military core that 
Saddam has wrapped himself in to rally around the flag. No 
matter what the opposition said, the Sunnis saw the rebellion 
as a threat to the integrity of their country, they saw it as a 
threat to their position, and they saw it as a threat to their 
lives.
    And I do not believe today that any pronouncements by an 
organized Iraqi opposition could allay those fears. The 
consequence of that will again be that the very people whose 
assistance we need, the Sunni core that surrounds Saddam, will 
be more disposed to support Saddam if we were to support the 
opposition.
    Last, it is easy for me to see how this policy goes awry in 
one or another way, which is that it leads to a civil war 
amongst Iraqis and, perhaps more worrisome, to a regional war. 
We have sense of this on a smaller scale in Lebanon. But I do 
not think it takes a great leap of geopolitical imagination to 
envision a scenario where Iraqis are at one another's throats 
along ethnic lines, geographic lines and political lines, and 
that Iraq's neighbors cannot resist the temptation to try to 
influence the outcome of that struggle.
    Indeed, I think it takes a much larger leap of faith to 
imagine they would adopt a hands-off policy. At a minimum, they 
would be funneling in arms and money. But they would probably 
also be funneling in irregulars. And I think you would see 
people from Iran, from Turkey and from Syria entering the fray. 
And what had begun as an isolated civil war all too easily 
could become an extraordinarily dangerous regional war.
    So let me come back to the question you all raised: Can 
Saddam be overthrown?
    Probably, but not definitely, yes. But it would certainly 
not be cheap and it would certainly not be easy.
    Which leads me then to the real alternative, which is the 
policy of containment. The goal of the policy would be to limit 
the threat posed by Saddam, to promote compliance with his 
international obligations.
    What would it take?
    Well, let me just say I agree with the others who have 
criticized what I am about to say. It would be extraordinarily 
difficult. We have reached the point where the United States 
has no good options, no cheap options, no guaranteed options. 
And I would put containment in that same area. Though I support 
it, I support it in some ways as the least bad option now 
available to the United States.
    What it would take--and it would be very hard, as I said--
are steps to shore up the international coalition. Critical 
here would be the Arabs. Two things more than anything else 
would be needed to shore up Arab support. One is to do 
something on the sanctions front. And we have already done 
quite a lot with Resolution 1153, which provides Iraq 
extraordinary levels of resources to buy any food and medicine.
    But I would be willing to 1 day exercise paragraph 22 of 
Resolution 687 if, as the Resolution requires, Iraq were to 
comply fully with all the requirements in the area of weapons 
of mass destruction and, second, only if we introduced an 
escrow account, much as was done under Resolution 986. If this 
were done, any revenues raised by Iraq from the export of oil 
would not simply go into the pockets of Saddam Hussein or the 
coffers of his government.
    There has to be a capture mechanism to make sure that money 
goes to compensating the victims of Iraqi aggression, to pay 
for U.N. inspectors, and to ensure that money could not be used 
to import arms. Because one of the things that would stay in 
effect, even if we reach this point, is the ban on Iraqi 
conventional military imports and the ban on Iraqi dual-use 
imports.
    And the only way I know of really making sure that these 
bans stick is to make sure that Saddam Hussein does not get any 
revenues directly, but rather they are captured by an escrow 
account that is doled out to him only for specific and 
controlled purposes.
    What else would have to be done to gain Arab support?
    We have to have a more energetic policy toward the Middle 
East peace process. I realize that while this matter comes 
under the jurisdiction of this subcommittee, it is not a 
subject of today. I would simply say that there is linkage 
there. It is a fact of life. And Arab enthusiasm for working 
with us to take on Saddam is diminished by the perception in 
Arab eyes that we have a lack of enthusiasm for pursuing peace 
in the Middle East.
    We also have to make Iraq policy a priority with the 
Europeans and the Russians. And that might mean adjusting other 
policies that are important to them, such as the pace, for 
example, of NATO enlargement or the question of secondary 
sanctions that are being threatened to be introduced under the 
ILSA legislation.
    In the case of Iran, we need to think about a more nuanced 
policy. That makes sense on its own merits. I also think, 
though, that this shift would present Saddam with a degree of 
encirclement and isolation that would help us in our larger 
aims.
    I would, though, emphasize two other things most of all. 
One is to some extent echoing my colleagues here. Any use of 
force must be intense, and it must go after Saddam's domestic 
sources of support: the Republican Guards (the people and their 
equipment), the internal security forces, and Saddam's ability 
to communicate with his people. Any use of force ought to go 
after that.
    I would point out that was not something we did during 
Desert Storm. Going after this sort of target was largely 
incidental. We did a little bit of it, but we did not design 
Desert Storm toward this end. Now, any military operation 
should be designed toward this end.
    Secondly, we need to adopt a new policy toward weapons of 
mass destruction and their possible use by the Iraqi 
Government. We should be clear and say the following: If you 
ever use weapons of mass destruction of whatever sort, the 
United States will adopt a policy of explicitly seeking your 
ouster and a change in government. And those in any way 
responsible for the use of weapons of mass destruction will be 
held to account.
    We ought to say that now as a deterrent against the Iraqi 
Government actually using any weapons of mass destruction which 
the inspectors prove unable to locate and destroy.
    If we adopt the policy that I have laid out here, I believe 
we will have a successful policy of containment. I also think 
there is a potential bonus. If we pursue this policy and if we 
are tested and we use force in the way I have described, I 
actually think we can affect those closest to Saddam, those who 
actually continue to have the best chance to get rid of him. 
And I think we have the potential to move them to act.
    I am not guaranteeing that. I am simply saying that is the 
potential bonus of the sort of policy I have laid out. But we 
have to go into this policy without expecting that bonus. And 
we have to remind ourselves, containment worked in the Cold 
War. Containment is working in Korea. Containment has worked 
for nearly 7 years in the Gulf. It can continue to work. It is 
doable. It is affordable. It protects our core interests.
    I would simply say in closing that a policy of containment 
succeeds if it is not allowed to fail. By contrast, a policy of 
rollback fails unless it is able to succeed. For that reason I 
believe that a policy of containment most serves the interest 
of this country.
    Thank you.
    [The prepared statement of Dr. Haass follows:]

                  Prepared Statement of Richard Haass

    The immediate result of the recent stand-off with Iraq is that the 
United States and the world community will continue to face an Iraq 
headed by Saddam Hussein who possesses some weapons of mass 
destruction. It is thus not surprising that this Committee has posed 
the question ``Can Saddam be overthrown?''
    A more basic question, however, is ``Should Saddam be overthrown?'' 
The short answer is ``yes.'' The people of Iraq and indeed people 
everywhere almost certainly would be better off if Saddam were no 
longer in power.
    Still, it is important to keep in mind that getting rid of Saddam 
is not a panacea. As we have seen in Afghanistan, ousting regimes is 
one thing, restoring order and installing a better system something 
else again. A policy that resulted in an Iraq that was the site not 
only of prolonged civil war but also regional conflict involving Syria, 
Iran, Turkey and possibly others would hardly qualify as a success.
    Moreover, to say that the world would be a better place if Saddam 
were to be overthrown is not to say that overthrowing Saddam should 
become the central purpose of American policy toward Iraq. As a general 
rule, a policy must not only be desirable but doable; in addition, the 
expected benefits and costs of a particular course of action must 
appear better than what could be reasonably expected from pursuing the 
alternatives. By these criteria, a policy dedicated to overthrowing 
Saddam does not appear to be the best option available to the United 
States at this time.
    In principle, one can design three variations of a policy that 
would make Saddam Hussein's removal from power the core objective. The 
three variations of such a roll-back policy are assassination, 
providing support to Iraqi opposition elements, or by taking control of 
the country. Each is discussed below.
    Is assassination, as some have suggested, an option? The short 
answer is no. As Fidel Castro's continued rule suggests, it tends to be 
difficult to carry out. Moreover, assassination raises a host of legal, 
moral and political problems. An Executive Order continues in force 
that precludes assassination. Any change in this order would set off a 
major domestic and international debate that would damage the 
reputation of the United States. In addition, we need to think twice 
before weakening this norm for more practical reasons. The United 
States is the most open society in the world. We are as a result highly 
vulnerable to assassination and retaliation ourselves.
    A second version of roll-back would borrow from the experience in 
Afghanistan. Thus, some individuals are advocating that the United 
States promote Saddam's ouster by supporting the Iraqi opposition with 
money, radio broadcasts, arms, and air power.
    This proposal, however, overlooks the reality that the Iraqi 
opposition is weak and divided. ``Oppositions'' would be more accurate. 
Building a strong, united opposition is an uncertain proposition that 
at a minimum would take years. During that time, the United States 
would still require another policy to deal with the more immediate 
challenges posed by the regime. A better parallel than Afghanistan 
might be to Hungary in 1956 or the Bay of Pigs, where U.S. support for 
local opponents of regimes was enough to get them in trouble but not 
enough to put them over the top. Providing direct military help for the 
Iraqi opposition would prove even more dangerous. We would be investing 
U.S. prestige and risking U.S. lives in situations in which it could be 
impossible to distinguish between friend and foe. Such a commitment 
could lead the United States to undertake a full-fledged intervention 
and occupation if limited support for opposition elements proved 
insufficient. The parallel to Afghanistan breaks down in other ways as 
well. Where is our ``Pakistan'' here? What local country is likely to 
step forward to be our partner? Neighboring countries, including our 
ally Turkey, are likely to oppose some of the goals of various Iraqi 
factions, while U.S. support for Iraqi factions that are in any way 
defined by geography or ethnicity could easily increase Iraqi military 
(and Sunni Muslim). support for the central government.
    More realistic in some ways than this indirect or ``lite'' form of 
roll-back would be occupying Iraq with ground forces, akin to what we 
did in Germany and Japan after World War II and on a far more modest 
scale in Panama and Haiti. But such ``nation building'' in Iraq could 
well take years, place U.S. forces in non-battlefield situations where 
they could not exploit their stand-off and precision-guided munitions, 
and generate intense resistance and casualties. Iraqi employment of 
weapons of mass destruction against U.S. forces or those assisting them 
cannot be ruled out. There would be little appetite here at home for a 
course of action that would almost certainly prove expensive in both 
financial and human terms. Nor would there be any more support in the 
region for such a policy, one that would seem to many to constitute an 
unacceptable form of ``neo-colonialism.'' What began as liberation 
would likely come to be seen as occupation.
    What, then, is the answer to the question that informs this 
hearing? Can Saddam be overthrown? The answer is ``yes'', but not for 
certain, and certainly not easily or cheaply. The only sure approach 
would require a massive investment of time, resources and possibly 
lives. We do not know how much resistance to us (and support for 
Saddam) would materialize, how much terrorism might be unleashed in 
retaliation, how much support we could expect in the region. Nor can we 
be confident of what sort of leadership and system would come to 
replace the current one.
    The alternative to roll-back in any of its various forms is 
containment. Under a containment strategy, the principal goal of U.S. 
policy would be to limit Iraq's ability to threaten the region and to 
encourage its compliance with the many resolutions passed by the UN 
Security Council in the aftermath of the Gulf War. Getting rid of 
Saddam would constitute a secondary aim.
    Making containment work would be far from easy. It is beyond our 
capacity to do alone. As a result, and more than anything else, we 
would need to shore up the international coalition that has helped keep 
Saddam in a box for some seven years now.
    Regenerating Arab support--essential if we are to mount any 
significant military operation--requires that we continue to support 
generous Iraqi exports of oil if it needs revenue to pay for needed 
food and medicine. More important, the United States should declare 
that it is prepared to allow Iraq to resume unlimited oil exports if it 
complies fully with the UN requirement that it not possess nor produce 
chemical, biological or nuclear weapons or long range missiles and if 
it accepts that any money earned from exports be funneled into a 
mechanism controlled by the United Nations. This would ensure that no 
funds could be use to purchase arms (which would remain forbidden) and 
would pay for ongoing work of the weapons inspectors (to continue in 
perpetuity). Proceeds would also be used to purchase food, medicine and 
consumer goods for the Iraqi people, to compensate Kuwaitis and others 
for war losses, and to pay Iraq's debts. This latter provision should 
encourage France and Russia to support the introduction of such a 
provision. Moreover, issuing such a declaration now will not change 
anything regarding the status of sanctions unless and until Saddam is 
certified by UNSCOM and IAEA inspectors. But even a change in 
declaratory policy will have the immediate benefit of strengthening our 
position in the Arab world where current U.S. policy--that Saddam 
comply with every aspect of every resolution before he receives any 
sanctions relief--is seen as unreasonable and unfair.
    We also need a more energetic policy toward Middle East peace. 
Linkage here is a fact of life. One need not and should not equate 
Israel and Iraq (or ignore Palestinian and Syrian shortcomings) to 
recognize that U.S. determination to press Saddam contrasts markedly 
with American passivity when confronted with Israeli reluctance to 
implement the Oslo accords or cease unilateral actions that complicate 
the search for peace. The willingness and ability of Arab governments 
to work with us against Saddam requires that we do something to reduce 
this perceived double standard.
    Rebuilding the coalition more broadly will require, too, that we 
make Iraq a diplomatic priority. This may mean going slow on subsequent 
phases of NATO enlargement--in particular, possible Baltic entry--so as 
not to further alienate Russia. (That moving slowly may also be good 
for NATO lest it dilute its capacity to act is an added benefit.) 
Shoring up the anti-Iraq coalition may also mean eschewing secondary 
sanctions that penalize France and others in Europe when they do not 
join U.S. boycotts of Cuba or Iran.
    A more nuanced U.S. approach toward Iran--one that embraced a 
reciprocal ``road-map'' for improving relations--would help in other 
ways, as it would threaten Saddam with further isolation or even 
encirclement. The good news is that all these policy adjustments make 
sense on their merits. No American interest would be sacrificed or 
compromised to make our Iraq policy more effective.
    Any use of military force should be large and sustained if Iraq 
again seeks to block UN weapons inspectors or if it masses forces 
against or attacks one of its neighbors. The target should be 
Republican Guard troops and their equipment, other internal security 
forces, communications networks--in short, Saddam's power base. To make 
this possible, the United States should maintain an augmented military 
capacity in the region on an open-ended basis.
    An element of deterrence should also be introduced into U.S. 
policy. Specifically, Saddam Hussein should be informed that if there 
is any use of weapons of mass destruction by Iraq, or if there is any 
use of WMD by others that can be traced back to Iraq, the United States 
will do whatever is necessary to remove the regime and bring all those 
responsible to justice.
    A containment policy along the lines outlined here promises to be 
better than explicit roll-back options. It may not offer the promise of 
a near-term solution that Americans tend to favor, but it will limit 
the problem. Moreover, it is both doable and affordable, something than 
cannot be said of more ambitious proposals. As a rule, containment 
succeeds unless it is allowed to fail; roll-back fails unless it is 
able to succeed.
    To make containment effective, though, will require that it become 
a priority of American foreign policy. It is not enough for the 
president and his chief lieutenants to turn their attention to Iraq 
after Saddam creates a crisis. As was demonstrated in our struggle with 
the Soviet Union, and as is demonstrated by what we are doing in Korea, 
containment--``longterm, patient but vigilant'' in George Kennan's 
original formulation--can work if we are prepared to commit to it.
    Moreover, Kennan's original formulation teaches us something else. 
A successful containment policy can set in motion forces that can 
actually lead to the demise of the regime in question. Change, if and 
when it comes to Iraq, is most likely to come from actions taken by 
those in or near the center of power who have access to Saddam and who 
would not be opposed by the majority of those in or near power. This is 
what took place in the Soviet Union and much of the formerly communist 
world. As a result, it is quite possible that the policy most likely to 
result in Saddam's ouster is one that does not place this goal at the 
center of what it is we are trying to bring about.
    In the case of Iraq, this argues for a policy that would relax 
export restrictions on Iraq only in the event of its full compliance 
with WMD-related obligations, maintain critical import sanctions for 
the foreseeable future, and regularly remind the Iraqi people of 
improvements they can expect when they are led by a different 
leadership that meets its international obligations. It would also 
require a readiness to attack directly and with great intensity 
Saddam's domestic sources of support on those occasions military force 
is justified. If all this leads to a change in Iraq's leadership, so 
much the better. But the advantage of containment over the alternatives 
is that it protects our core interests even if Saddam manages to hang 
on for months or even years.

    Senator Brownback. Thank you, Dr. Haass.
    We are going to close this hearing at 5, if we can, so we 
will each try to make our questions maybe as germane and as 
short as possible. And if we can get as many answers as we 
could, I would appreciate that.
    Having said that, I want to violate that at the very 
outset. I have the Vice President's letter to Dr. Chalabi that 
is interesting from the standpoint of its statements in here. 
And we will enter this fully into the record.
    But it says in this August 4, 1993 letter:

    The President and I share the concerns you raised in your 
letter, and I assure you that we will not turn our backs on the 
Kurds or the other Iraqi communities subjected to the 
repression of Saddam Hussein's regime. Since April 1991, 
coalition forces have protected the inhabitants of northern 
Iraq from Baghdad's repression, and the administration is 
committed to continuing that effort.

    And then it states their pledge of support for a democratic 
alternative to Saddam Hussein's regime:

    I can assure you that the U.S. intends to live up to these 
commitments and to give whatever additional support we can 
reasonably provide to encourage you in your struggle for a 
democratic Iraq.

    I can see what they base their views upon. We will enter 
that into the record.
    Mr. Woolsey and Dr. Khalilzad, if we could, I take it 
really from what you are stating, you think we should reject 
the U.N.-negotiated agreement and pursue this different, long-
term strategy of destabilizing Saddam?
    Mr. Woolsey. I would put it a little differently, Mr. 
Chairman. I do not have any real confidence that the U.N.-
negotiated agreement is going to deter Saddam for more than a 
very brief period, if at all, from interfering with the U.N. 
inspections. But I would not advocate rejecting it out of hand.
    I do not believe it is inconsistent for us to insist on the 
full observation by Saddam of the U.N. resolutions and this 
agreement, and to go ahead and proceed to adopt a policy, that, 
for as long as it takes, we will politically and economically 
support a government in exile because we think his is 
illegitimate. And if he moves against the Kurds in the north or 
the Shia in the south, then we should protect them, as we did 
not in 1991 and 1996. And if he gives us an opportunity, by--
and I think he will--interfering with U.N. inspections, then we 
should then use that opportunity to execute the type of 
military strikes I describe.
    But I would not advocate simply rejecting the U.N.-
negotiated agreement as long as he permits inspections--perhaps 
for a while--on an un-interfered basis. Then, fine. The more 
those continue, the better off we are.
    Senator Brownback. I think a number of us have been 
critical that we have bought the same bad horse the third time 
here. So let us get prepared for when the agreement gets 
violated.
    Mr. Woolsey. I agree with that. I do not think this 
agreement is going to last, and I think we should get prepared 
for when it is violated. But insofar as the combination of Mr. 
Annan and Mr. Butler and the official from Sri Lanka, who has 
been appointed the head of this commission, works in such a way 
as to have the United Nations as a whole insist on full and 
unfettered inspections, then we are better off. Because if 
Saddam violates that, it will help draw support to the steps we 
would then have to take.
    The agreement does have some ambiguity in it in places. And 
I think that what is really important, though, is for the 
inspections to be carried out the way they were under Mr. Ekeus 
and under Mr. Butler; namely, whether they are looking at 
Presidential palaces or anything else, the only person who knew 
where the inspectors were going was the head of the team. The 
helicopters would take off without anyone on the team knowing 
where they were going, much less the Iraqis. And that was one 
of the things that led to a struggle in a helicopter between an 
Iraqi and a U.N. official at one point.
    I think it is very important that the UNSCOM work in such a 
way that the diplomats who are along for the ride and the 
window dressing not have any advance notice of where the 
inspection is going and not be able to interfere with it. If 
they want to sit there and say diplomatic things, I suppose 
that is all right.
    Senator Brownback. Mr. Woolsey, you have stated that the 
development of these weapons of mass destruction is little more 
complicated than a microbrewery associated to a restaurant.
    Mr. Woolsey. Making them.
    Senator Brownback. Making them. If that is indeed the case, 
then we cannot eliminate his ability to produce weapons of mass 
destruction, can we?
    Mr. Woolsey. I think that is right. Not only can we not 
eliminate the people who know how to do it, not only can we not 
eliminate the equipment, which he could replace relatively 
easily, but, most importantly, we cannot eliminate the 
motivation of people who would do what he has done. This is one 
of the main things that leads me to believe we should adopt the 
long-term policy to get the regime removed, even if takes 
years, that I described.
    If the only problem was nuclear weapons, and if the only 
way he was producing fissionable material was a big, fat target 
like the Osirak reactor that the Israelis so wisely destroyed 
at the beginning of the eighties, then the situation might have 
some differences. But we cannot, as a matter of the physics of 
the way these weapons are produced, actually take away his 
ability to develop and produce them.
    And particularly, if sanctions are lifted and Saddam has 
billions a year coming in as a result of oil, there are lots of 
places in the world you can buy extended range SCUD's and 
anthrax grows in a lot of cow pastures. This is not rocket 
science and it is not like building a large reactor to produce 
fissionable material.
    Senator Brownback. Dr. Haass, building on that statement, I 
tend to--I agree with him, and I generally think most people 
do, that we cannot eliminate his ability to develop weapons of 
mass destruction, that the problem is Saddam. Yet you continue 
to believe that the alternatives are such and the ability to 
get to the alternatives of Saddam are so difficult that you 
think containment is the strategy to pursue. It leaves him with 
the weapons. It leaves him in power. It leaves him increasingly 
in power. And containment has been falling apart for us. We are 
not able to hold it together.
    Why would you continue to support that strategy, which 
seems to be falling apart on us?
    Dr. Haass. Mr. Chairman, to say it has been falling apart 
is a bit rough on the policy. True, it is weaker today than it 
was 7 years ago--in some cases, considerably weaker. But I 
would also say the glass is half full in a couple of areas. The 
fact that sanctions are as robust as they are after 7 years is 
extraordinary. I have just completed a study of the history of 
sanctions. These really stand out on the positive side.
    For all the differences, there still is a large degree of 
international support for Saddam meeting his obligations.
    Senator Brownback. Because my time is limited, I want to 
get in here and make sure to get my point to you, and then ask 
you to respond directly to it. It has been loosening. And if we 
go further down this road, it is unlikely we will be able to 
contain his ability to get more resources into his regime.
    Dr. Haass. Two things on that very quickly, then. If we 
were to simply leave the condition alone, it could get weaker. 
I agree with you. That is a real risk. What I tried to lay out 
and what I hope this administration adopts is an awfully robust 
or muscular version of containment. But I take your point. 
There is a risk. If we allow the policy to drift, it will 
unravel.
    Containment is at least as demanding, in certain ways, as 
these alternatives policies. It is not the easy choice. So it 
is asking a lot of the administration. It is asking a lot of 
the countries in the region. I just think, all things being 
equal, it is more doable, with less risk and cost, than the 
alternative. But I do not argue your premise, that it is by no 
means a guaranteed success. I take that as a real warning that 
we had better put our shoulder to the wheel or our position 
will continue to get weaker.
    Senator Brownback. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Given the time constraints that we are now under, let me 
just ask a couple of general questions, I guess the first one 
to my friend, Mr. Woolsey, here. Given your view, and I think 
widely shared, about the virtual impossibility of complete 
elimination of the current inventory, whatever it might be, 
that has been undisclosed, and certainly the inability to 
guarantee that no future inventory could be produced on 
relatively short order, should we abandon as a principle tenet 
of our policy an attempt to deal with that question altogether?
    Mr. Woolsey. No, I do not think we should abandon it 
altogether, because there may be some things we can do. For 
example, on ballistic missiles, targeting the facilities that 
manufacture the shorter-range and, theoretically, legal 
ballistic missiles.
    Senator Robb. Well, let me be more specific, then. With 
respect to CW and BW, excluding delivery capability and 
excluding nuclear, which I think all of us put in a separate 
category, as you have suggested, should we be less concerned 
about these terrible agents of death and mass destruction than 
we are?
    Mr. Woolsey. No. Some CW sites could probably be targeted. 
BW is very difficult. But Saddam has been moving things around, 
with this Special Security Organization and Special Republican 
Guard that in fact guard him. And if the intelligence available 
to UNSCOM is effective, they may, by being vigorous and having 
no-notice inspections and the like in the way I describe, be 
able to uncover some things. And although it is difficult, I 
think it is worthwhile continuing to make it important. It is 
just that what I object to is saying that it is the only thing 
we are trying to do. Because that undercuts our ability, our 
justification, for striking at the Republican Guard and the 
infrastructure of his regime.
    Senator Robb. But if it makes our objective always 
unobtainable, in terms of an absolute sense, should we find 
some way of modifying what would, in effect, be completion or 
success on that particular aspect of our policy?
    Mr. Woolsey. Well, the only way, I think, to succeed in 
this objective is to get the regime out over the long run. I 
think there may be some things we can do, and we should 
continue to pursue them with respect to weapons of mass 
destruction, but that the main thrust, however we describe it, 
the main thrust of any air strikes ought to be to make it 
harder for him to exercise power.
    Senator Robb. That I understand. And I agree with that and 
have focused on that for some time.
    Let me ask a couple of questions about oil. Everybody has 
made some reference to it in one way or another. And there is 
an implicit suggestion, I think, that if we can carve out a 
little territory and install a provisional government of some 
sort and allow them to export oil without sanctions, although 
continuing to keep sanctions on the part over which Saddam 
maintains control, as a practical matter, is there sufficient 
ability to produce and export oil by any prospective 
provisional part of what could become a Balkanized Iraq if it 
is not already?
    Mr. Woolsey. Let me let the others speak to this. But I 
believe that in the north, particularly if Mosul were taken by 
the supporters of democracy in Iraq, and for some parts of the 
south, it would be feasible, depending upon exactly what areas 
were held, for a provisional government to export. It would 
take some repair to infrastructure. It would take cooperation 
in the north with Turkey and the like. But it is not 
impossible.
    Senator Robb. In other words, it is something that you 
think is doable, to use a term that Dr. Haass was using earlier 
in another context?
    Mr. Woolsey. With some work and effort. And a lot depends 
on how broad or how widely the writ of a provisional government 
would run, especially in the north.
    Senator Robb. All right. Now, let me ask a question then 
about the possibility of placing money in escrow from the 
export of oil under existing circumstances, if you will. If 
Saddam is still in power and if we are putting the money in 
escrow, what incentive is there going to be for him to even 
export or in any way play that game, if you will? That removes 
from him any incentive--and, again, I am not an advocate for 
Saddam, so I do not want anything I might say to be 
misunderstood or misconstrued--but what incentive remains for 
Saddam to, in effect, let that happen?
    Dr. Haass. Well, the incentive for him is that it still 
gives him the potential access to a greater sum of money. And a 
lot depends upon what the list is of things he can spend it on.
    If we make the list inclusive, short of conventional arms 
and certain dual-use technologies, that still gives him 
considerable incentive to comply.
    Senator Robb. In other words, you think that is a, quote, 
deal that he would accept?
    Dr. Haass. Well, he has already accepted less than that by 
his acceptance, first, of Resolution 986 and, more recently 
Resolution 1153, where he has accepted the right to produce 
various amounts of oil, so many billions of dollars worth over 
6 months, in order to buy a very narrow list of commodities--
initially, just food and medicine; more recently, food, 
medicine and certain types of infrastructure to repair things 
domestically within Iraq.
    Senator Robb. But he has not permitted the free 
distribution of the humanitarian items to the intended targets?
    Dr. Haass. Senator, I do not think, with or without 
sanctions, you are ever going to have Saddam Hussein allowing 
the free distribution of----
    Senator Robb. Well, that is really the point I am getting 
at. I am trying to see if there is a way to have an agreement 
that is binding and enforceable and doable, if you will, in 
that area.
    Dr. Haass. There are two obstacles. One is getting others 
to agree that this ought to be a requirement. The Russians and 
the French in particular will largely resist us. And they will 
say, you are rewriting the resolution; it is not there. We will 
argue there is a precedent for it. And, second, Saddam will 
obviously try to get it unfettered. He wants the money to come 
directly to him. There is the U.S. vote, though. Right now, 
that process can only happen if we allow it to go forward.
    Senator Robb. OK. Well, I think we are all essentially on 
the same wavelength here.
    Let me ask one question, if I may, of all three. And, Dr. 
Khalilzad, you may want to take this one to start off with. But 
the question of communications. We have talked about Radio Free 
Iraq, some means of communicating effectively with, quote, the 
people.
    We know, in North Korea, that there are means that Kim 
Jung-Il and his father, Kim Il-Sung, and what have you, had by 
taking all but a single or a couple of bands out of the radios 
and other real means of controlling the information that 
actually reached the vast majority of the North Korean people. 
In Iraq, we have a different situation. We do not have at least 
that kind of control.
    First of all, is enough of the international message, via 
CNN and others, actually getting through, notwithstanding the 
fact that it is illegal to have downlinks and whatever the case 
may be? And is there an effective way to reach this population, 
particularly those who are in a position to bring about change 
in government and to encourage those who might support such 
change if they felt there was a chance of succeeding?
    Dr. Khalilzad. Mr. Chairman, I think you are right that the 
situation in Iraq is not as bad as the one in North Korea, with 
regard to the regime's control over the population, in terms of 
access to information. However, what is missing is the ability 
of the opposition to communicate broadly with the Iraqi people. 
And Radio Free Iraq would perform that role.
    We do broadcast to Iraq via VOA. And based on some 
interviews that I have done on VOA and the reactions that I 
have gotten from inside Iraq, people do listen to VOA. But VOA 
reflects U.S. views. But what we are advocating is something 
similar to Radio Free Europe, and available to the democratic 
forces in Iraq, so that their message can reach the Iraqi 
people.
    Senator Robb. On the question of communication--and this is 
my final question, just to followup, Mr. Chairman--do either 
Mr. Woolsey or Dr. Haass have any additional thoughts on how we 
can more effectively communicate? I cannot remember now who 
said what about the morale of the Iraqi people. Certainly the 
first witness had a lot to say about that and a lot of 
speculation about what they might do under certain 
circumstances.
    In this capacity, would you comment on our ability to 
communicate and the likelihood that this would succeed to the 
degree that Mr. Chalabi suggested in terms of rallying the 
Iraqi people to some cause that would be an alternative to 
Saddam?
    Dr. Haass. I would say two things very quickly. With radios 
you could do something. The more local support you had, the 
better it would be just in terms of transmission. You could 
possibly do some things through leafletting. But I think you 
have put your finger on the key issue. It is less how we get it 
in there and more what the content of the message is.
    And we have to think real hard about whether the message is 
meant to stimulate any sort of general popular uprising, which 
would be extremely dangerous, or more to simply send out a 
signal to those who are close to Saddam, saying, here is the 
shape of a better future without him, and lay out a course 
where Iraq could once again regain entry into international 
society.
    But we need to be careful--and it is something that Dr. 
Khalilzad mentioned--about how much it would be us and how much 
of it would be in the hands of Iraqi opposition elements. 
Because to the extent it was the latter, we would have to think 
awfully hard about the control of the content.
    Mr. Woolsey. If I could just add one quick point.
    Senator Robb. Please.
    Mr. Woolsey. VOA is sort of the American perspective on 
things. The genius of Radio Free Europe was that it was the 
radio that would have existed in, say, Poland if Poland had 
been free. And a lot of it, of course, was staffed by 
expatriates and the like.
    I think two things would be very useful. One is to let 
Radio Free Europe establish the U.S. Government broadcasting 
into Iraq in the same way it broadcast into Eastern Europe and 
into the Soviet Union with Radio Liberty during the cold war. 
And, second, to provide some assistance to the government in 
exile, so that it too could broadcast.
    If we are talking shortwave and talking radio, the expenses 
are not huge. Television is tough. Having a satellite dish puts 
you under suspicion and all the rest. But shortwave radio, from 
many places in the world, can reach Iraq. And I think there is 
a role for both Radio Free Europe and for an Iraqi opposition 
radio broadcast that they themselves would do.
    Senator Robb. Thank you, gentlemen.
    May I just join the chairman--I know he is going to thank 
you--but for three very thoughtful statements, not entirely in 
sync, but I think exhibiting the kind of range of obstacles and 
challenges that we face in a more thoughtful way than an 
occasional sound bite might suggest that the deliberations are 
considering. And you have made a valuable contribution to that 
effort, and I thank you.
    And I thank you, Mr. Chairman.
    Senator Brownback. Yes, thank you. This was the McNeil-
Lehrer version of discussion on this topic. [Laughter.]
    Senator Brownback. I appreciate it very much. They were 
thoughtful presentations, good fodder for us to chew on, on a 
very tough, difficult subject.
    Thank you all for attending. The hearing is adjourned.
    [Whereupon, at 5:05 p.m., the hearing was adjourned.]

                                    

      
</pre></body></html>
